<html>
<title> - HOUSING ISSUES IN INDIAN COUNTRY</title>
<body><pre>[Senate Hearing 110-65]
[From the U.S. Government Printing Office]


                                                         S. Hrg. 110-65
 
                    HOUSING ISSUES IN INDIAN COUNTRY

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

         OVERSIGHT HEARING ON HOUSING ISSUES IN INDIAN COUNTRY

                               __________

                             MARCH 22, 2007
                             WASHINGTON, DC



                      U.S. GOVERNMENT PRINTING OFFICE
34-266 PDF                    WASHINGTON  :  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government
Printing Office Internet:  bookstore.gpo.gov Phone:  toll free (866)
512-1800; DC area (202) 512-1800 Fax: (202)512-2250 Mail: Stop SSOP,
Washington, DC 20402-0001 

                      COMMITTEE ON INDIAN AFFAIRS

                BYRON L. DORGAN, North Dakota, Chairman

                  CRAIG THOMAS, Wyoming Vice Chairman

DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            PETE V. DOMENICI, New Mexico
DANIEL K. AKAKA, Hawaii              GORDON SMITH, Oregon
TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARIA CANTWELL, Washington           RICHARD BURR, North Carolina
CLAIRE McCASKILL, Missouri           TOM COBURN, M.D., Oklahoma
JON TESTER, Montana

                Sara G. Garland, Majority Staff Director

              David A. Mullon Jr. Minority Staff Director

                                  (ii)

  






                            C O N T E N T S

                              ----------                              
                                                                   Page
Statements:
    Boyd, Rodger, deputy assistant secretary, Office of Native 
      American Programs, Department of Housing and Urban 
      Development................................................     3
    Burnette, Juel, retail supervisior and progam director, 
      Native American Housing Initiatives, Wells Fargo...........    21
    Cabrera, Orlando J., assistant secretary, Office of Public 
      and Indian Housing, Department of Housing and Urban 
      Development................................................     3
    Daniels, Dennis, deputy executive director, National American 
      Indian Housing Council.....................................    18
    Dorgan, Hon. Byron L., U.S. Senator from North Dakota, 
      chairman, Committee on Indian Affairs......................     1
    Lumley, Paul, executive director, National American Indian 
      Housing Council............................................    18
    Perez, Jon, director, Behavioral Health, Indian Health 
      Service....................................................     7
    Rivera, George, governor, Pueblo of Pojoaque, Santa Fe, NM...    17
    Steele, John Yellow Bird, president, Oglala Sioux Tribal 
      Council....................................................    14
    Tester, Hon. Jon, U.S. Senator from Montana..................     3

                                Appendix

Prepared statements:
    Burnette, Juel (with attachment).............................    39
    Cabrera, Orlando J. (with attachment)........................    47
    Inouye, Hon. Daniel K., U.S. Senator from Hawaii.............    29
    Kane, Micah A., chairman, Hawaiian Homes Commission..........    29
    Lumley, Paul (with attachment)...............................    75
    Martinez, Alyn, Housing Corporation Director, Pueblo of 
      Pojoaque, Santa Fe, NM (with attachment)...................    33
    Perez, Jon...................................................    30
    Pyle, Gregory, principle chief, Choctaw Nation of Oklahoma...    31
    Rivera, George (with attachment).............................    33
    Sossamon, Russell, president, Southern Plains Indian Housing 
      Association................................................    37
    Steele, John Yellow Bird.....................................   135


                    HOUSING ISSUES IN INDIAN COUNTRY

                              ----------                              


                        THURSDAY, MARCH 22, 2007


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:45 a.m. in room 
485, Senate Russell Office Building, Hon. Byron L. Dorgan 
(chairman of the committee) presiding.
    Present: Senators Dorgan, Domenici, and Tester.

  STATEMENT OF HON. BYRON L. DORGAN, U.S. SENATOR FROM NORTH 
         DAKOTA, CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    The Chairman. The hearing will come to order. This is a 
hearing of the Senate Committee on Indian Affairs on housing 
issues in Indian country.
    Today, the committee meets to receive testimony on these 
housing issues. I welcome all of our witnesses who have taken 
time from their schedules to be with us. I know some have 
traveled long distances to be here, and we appreciate that.
    Housing is one of our basic needs as human beings, and as 
many of us know, this basic need is not being met in parts of 
our country, especially in Indian country; 40 percent of on-
reservation housing is considered inadequate. One in five 
reservation homes lacks complete plumbing, and 90,000 Indian 
families are homeless or under-housed. It is not uncommon in 
Indian communities for 25 to 30 people to share a single home. 
Over one-third of the homes are overcrowded.
    It is estimated that more than 230,000 housing units are 
immediately needed to provide adequate housing in Indian 
country. Fewer than one-third of American Indians own their own 
home, compared to the national average of 67 percent. It is 
estimated that $1.1 billion is needed to meet housing needs in 
Indian country.
    Funding for Indian housing has been stagnant over several 
years and has not kept up with the inflation and the rising 
cost of building materials.
    I want to show a series of charts today. I have spoken on 
the Floor before about the deplorable housing conditions. I 
have spoken in the past about an Indian woman named Sarah Swift 
Hawk, a grandmother who froze to death in her own home, laid 
down on a cot to go to sleep and never woke up; froze to death 
in her own home in this country.
    Let me describe the kind of homes we are talking about. If 
I can have chart number 1 put up. I think we can see it both 
here on the dais and also the audience. Carlyle Russell, 
decorated World War II veteran, lived in this house on the San 
Carlos Apache Reservation until he died last summer. His widow 
Ethel Russell is standing in front of the house. She continues 
to live in the house with two children and five grandchildren; 
no running water; dangerous electrical work; and no insulation 
from seasonal elements. That is the home lived in by a 
decorated World War II veteran.
    No. 2. San Carlos Apache home again. This house is about 35 
years old, built from scratch by family members. Now, a young 
couple and their two children live in this unsafe and 
unsanitary house without electricity and without running water.
    No. 3. A picture of a kitchen at San Carlos Apache 
Reservation. Plumbing problems that deteriorated the entire 
bottom of the sink at the floor. A young couple lives in this 
home with four kids, ranging from 7 to 1 years old, and in 
addition, an extended family. The number of family members who 
live in this home are on a waiting list for a rental home. It 
will take months or years to get into a rental home.
    No. 4. Our colleague, Senator Murkowski, will recognize 
this situation in Alaska. Short-term disposal containers that 
are used for emptying the honey buckets at many Alaska Native 
village homes. The 5 gallon bucket with a toilet seat placed on 
top of it, kept in an outhouse or shed, or in the house itself, 
and used as a toilet. These homes lack plumbing, running water, 
and outhouses can't be built in some parts of Alaska because 
the homes are located on permafrost.
    I have two more. Number five. This home is a home in which 
a middle-aged lady with five children and one grandchild lives 
in; no running water; no electricity; one room home built in 
2001 by a family member with material donated by family 
members.
    Finally, just a bit of good news. No. 7 and No. 6. These 
are success stories. These are new homes. These happen to be in 
New Mexico. Two pictures of the Santo Domingo Pueblo Housing 
Authority homes, funded by NAHASDA dollars. Five homes were 
built in 2004 and 2005. This is a picture of a woman standing 
in front of the home, photo no. 6, that you are seeing. This is 
a new home of Ms. Angelita Tenorio, whose prior home was built 
in the 1940's and in severe disrepair.
    Photo 7 is the picture of a new home constructed for a 
tribal elder, Mr. Pachayo, who returned to the reservation in 
2000 and lived in a 20 foot by 30 foot storage unit with an 
electric stove and no plumbing until this home was built.
    I show these photographs to describe to you a deplorable, 
shameful condition in which many families are living on Indian 
reservations.
    That is fine. You can take the photographs down. Thank you 
very much.
    The Native American Housing Assistance and Self-
Determination Act, section 184, Indian Housing Loan Programs, 
the Guarantee Programs, we want to hear testimony today about 
these programs. I come to this issue, as I do on the issue of 
Indian health care. There are no front page stories these days 
about these conditions, but my guess is if some of the 
reporters of the major daily newspapers might walk into a few 
of these homes and see a small three bedroom home with 23 
people living in it; in some cases no plumbing, no electricity, 
under deplorable circumstances, perhaps they, too, would 
receive a front page story, and they, too, would receive the 
public attention that is necessary to try to find a way to 
resolve these housing issues and the housing crisis that exists 
on many Indian reservations.
    Senator Tester.

    STATEMENT OF HON. JON TESTER, U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman. I think you have 
laid it out very, very well.
    As we have traveled around through Indian country in 
Montana, I have become aware of many needs, sometimes 
overwhelming in nature. Health care and water and housing I 
would say are the top three. When you take a look at the 
unemployment rates in Indian country, in Montana in particular 
and throughout this country, I think that we quite possibly 
could eliminate two problems at once with housing and putting 
people to work in Indian country.
    I very, very, very much look forward to the testimony 
today. I look forward to hearing what you fellows have to say. 
I think the key is for all issues that have come before this 
Committee in Indian country is working together and finding 
solutions because we are making a big mistake if we don't.
    So I look forward to your testimony, and I look forward to 
finding ways that we can make these programs work to the best 
ability to satisfy the needs in Indian country.
    Thank you, Mr. Chairman.
    The Chairman. Senator Tester, thank you very much.
    We are talking about reauthorizing some Indian housing 
programs in this Congress. We, of course, will also talk about 
the funding issues, because there has been no growth and in 
some cases there is less funding than there was 6 years ago for 
these programs.
    Senator Thomas, the vice chairman of this committee, is 
attending an important Finance Committee meeting, so he is not 
able to be with us this morning, but he wanted me to mention 
that, and mention his interest in the Indian housing issues.
    We are joined today by Orlando Cabrera, the assistant 
secretary of the Office of Public and Indian Housing, 
Department of Housing and Urban Development; and Dr. Jon Perez, 
the director of Behavioral Health at the Indian Health Service.
    Following the testimony of these two distinguished 
witnesses, we will have a second panel with four witnesses. Let 
me welcome Mr. Cabrera. Thank you for being with us again. Your 
entire statement will be made a part of the record, and we 
would ask that you summarize. You may proceed.

          STATEMENT OF ORLANDO J. CABRERA, ASSISTANT 
        SECRETARY, OFFICE OF PUBLIC AND INDIAN HOUSING, 
         DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT, 
         ACCOMPANIED BY RODGER BOYD, DEPUTY ASSISTANT 
         SECRETARY, OFFICE OF NATIVE AMERICAN PROGRAMS

    Mr. Cabrera. Thank you.
    Mr. Chairman and members of the committee, thank you for 
inviting me to provide comments on HUD's Indian Housing Loan 
Guarantee and Community Development Programs. My name, for the 
record, is Orlando Cabrera and I am assistant secretary for 
Public and Indian Housing at the Department of Housing and 
Urban Development.
    PIH is responsible for the management, operation and 
oversight of HUD's Native American and Native Hawaiian 
programs. These programs are available to 561 federally 
recognized Indian tribes, five State-recognized Indian tribes 
formally eligible under the Housing Act of 1937, and the State 
of Hawaii's Department of Hawaiian Home Lands.
    We serve these entities directly and through their tribally 
designated housing entities by providing grants and loan 
guarantees designed to support affordable housing and community 
development activities. Our partners are diverse. They are 
located on Indian reservations, in Alaska Native villages, and 
on Hawaiian Home Lands.
    It is a pleasure to appear before you again, and I would 
like to express my appreciation for your continuing efforts to 
improve the housing conditions of American Indian, Alaska 
Native, and Native Hawaiian people.
    From HUD's perspective, much progress has been made. Native 
Americans and Native Hawaiians are taking advantage of new 
opportunities to improve the housing conditions of the American 
Indian families residing on reservations, on trust or 
restricted lands, in Alaska Native villages, and on Hawaiian 
home lands. This momentum needs to be sustained as we continue 
to work together toward creating a better living environment in 
Native American communities.
    One way to sustain momentum is through the reauthorization 
of all Native American and Native Hawaiian housing and loan 
guarantee programs. The department supports the reauthorization 
of those programs and is examining a number of statutory 
amendments to NAHASDA that may be offered during the 
reauthorization process.
    Here is a brief over view of the amendments the department 
if considering. First, we would suggest amending section 
201(b)(2) to allow essentially over-income families to occupy 
rental housing and receive tenant-based rental assistance in 
some circumstances. Currently, certain over-income non-Indian 
families may be declared essential to the tribal community, 
while Native American over-income families are not provided 
that benefit. We believe that those folks would benefit from 
curing that exception.
    We would recommend or suggest recommending amending section 
201(b)(3) so that essential Native American families can also 
be housed in those units regardless of income, mostly because 
the idea would be if they are providing an essential service, 
we should be encouraging Native American families to live in 
those units.
    We would suggest amending section 205 to delete the 
requirement of what has come to be called useful life and 
binding commitments for home ownership units and make the 
provision applicable only in the case of rental and lease-
purchase housing that is owned or operated by a grant 
recipient. Current restrictions have sometimes prevented the 
children or spouses of a deceased home buyer from inheriting 
the deceased's interest in the property.
    This particular provision comes imported from the Home 
Investment Partnership Program. One of the problems in a home 
ownership context is that families, or the estates of people, 
are being deprived of full value of the home simply because 
they accepted moneys from these programs. Trying to give them 
relief, we believe, would both encourage the value to be kept 
in the home for the family and encourage those homes to be used 
by Native Americans.
    We would suggest amending section 302 of the Indian Housing 
Block Grant allocation formula and stop counting units for FCAS 
purposes in the year after they are conveyed, demolished or 
disposed. This issue came up during the Fort Peck litigation, 
Mr. Chairman, that you might recall from last year.
    This change would comport with the process established by 
the original negotiated rulemaking committee that crafted the 
Indian Housing Block Grant regulations. The real issue here is 
preventing the allocation of Indian Housing Block Grant money 
to units that no longer exist in FCAS.
    So we would suggest amending title IV of NAHASDA to clarify 
that issues related to the repayment of the Indian Housing 
Block Grant and FCAS allocations do not constitute, in and of 
themselves, substantial noncompliance by grantees. Substantial 
noncompliance by a grantee triggers a formal administrative 
hearing on this issue.
    We would suggest amending section 2024, the housing 
services component, to clarify that grantees may use IHBG funds 
for the maintenance and operation of units developed with IHBG 
moneys. Currently, this is considered a model activity, and not 
an activity in the ordinary course. The amendment would reduce 
the paperwork for grantees and for HUD staff.
    More importantly, it comports with our mission to make 
things more simple, not more complicated when trying to deal 
with allocating rent money.
    We would suggest amending section 102 to simplify and 
streamline the Indian housing plan submissions requirements by 
deleting the 5-year plan requirement, streamlining the one year 
plan to eliminate duplicative information, and establish the 
Indian housing plan due dates based on the grantee's program 
year.
    All of this, again, has to do with simplicity and just 
making it more workable for tribally designated housing 
entities to do their best work. We would suggest amending 
section 404 to delete the requirement for a grantee to describe 
how it would change its program as a result of it's 
experiences. We believe most TDHEs find that to be somewhat of 
an exercise in redundancy.
    Most grantees do not think this information is necessary. A 
second amendment to the section conforms the APR to reflect any 
IHP changes that are made.
    We would suggest amending the Section 184(a) Program, 
authorized by the Housing and Community Development Act of 1992 
in two ways. We would suggest amending the Act to allow 
refinancing, and that would give people the ability to borrow 
or tribes the ability to borrow money and make it available for 
refinancing, and we would amend the act to remove the 
requirement that the annual Native Hawaiian housing plan must 
include loan guarantee activity.
    A second way to sustain momentum is to continue building 
upon current program successes. During fiscal year 2006, tribes 
and their TDHEs used the Indian Housing Block Grant funds to 
build, acquire or rehabilitate more than 1,600 rental units and 
more than 6,000 home ownership units. Each of these units has 
become a home to a Native American family.
    HUD's Office of Native American Programs has continued to 
develop more robust performance indicators to measure our 
progress and the progress of rent recipients.
    At the same time, we are seeking to strengthen data 
collection capability to improve reporting and ensure that we 
can understand and communicate the rate of program fund 
obligations, expenditures and production. The Department of 
Hawaiian Home Lands has focused a significant amount of Native 
Hawaiian Housing Block Grant resources on the site and 
infrastructure improvements to support the development of new 
home ownership units.
    DHHL has also partnered with public entities, private and 
nonprofit, and for-profit organizations to assist families in 
achieving and maintaining home ownership. There are numerous 
affordable housing activities in process at more than 14 sites 
throughout the State of Hawaii.
    HUD's Office of Native American Programs has continued to 
develop more robust performance indicators to measure our 
progress and the progress of the recipients. At the same time, 
we are seeking to strengthen data collection capacity to 
improve reporting and ensure that we understand and communicate 
the rate of those changes.
    A third way to sustain and strengthen momentum is to build 
on HUD's success in capital markets. HUD's goal is to utilize 
PIH's Native American programs as catalysts for economic 
development and to contribute to building sustainable economies 
within Native American communities. ONAP's success with the 184 
Loan Guarantee Program has greatly increased the incidence of 
home ownership in Indian country. Expanding the use of title VI 
and the creation of bond financing programs will greatly assist 
in accessing capital markets and building sustainable 
economies.
    Home ownership and the ability to build equity in one's 
home is an important component in development of strong tribal 
communities. In fiscal year 2006, the section 184 Loan 
Guarantee Program guaranteed 1,138 single family loans to 
Native American home buyers, which represents a $190 million 
investment in Indian country. To date in this fiscal year, 470 
loans have already been guaranteed for $77.5 million. This 
represents an 80-percent increase in the number of loans 
guaranteed when compared to fiscal year 2005 program activity, 
and a 90-percent increase in the dollars invested.
    Fiscal year 2007 first quarter totals represent a 49-
percent increase in dollar volume over the same period in 
fiscal year 2006.
    In title VI, the real objective is to leverage. We would 
like to see this program increase its capacity to leverage IHBG 
funds on a 5 to 1 ratio. So that would mean for every dollar of 
IHBG funds, we would be raising $5 in the private market.
    This means a tribe can increase its capacity to develop 
affordable housing beyond its annual IHBG grant proposal. In 
fiscal year 2006, 13 loans were either guaranteed or obligated 
for a total of $13,185,279, or $1,616,000 in subsidy. For 
fiscal year 2007, tribes and TDHEs have 14 projects for about 
$16,400,000 in process.
    Even with this historically high program activity, the 
program is under-utilized by tribes. One of the very key ways 
that title VI can be used, Mr. Chairman, is by using title VI 
to enhance infrastructure. We are trying to encourage tribes to 
do that.
    The Chairman. Mr. Cabrera, I will have to ask that you 
summarize the remainder of your statement.
    Mr. Cabrera. I shall.
    I will actually conclude, Mr. Chairman, and thank you, and 
I stand ready to answer any questions you might have.
    [Prepared statement of Mr. Cabrera appears in appendix.]
    The Chairman. Next we will hear from Dr. Perez from the 
Indian Health Service. Dr. Perez, you in fact attended a 
hearing that I held in Bismarck, ND, a hearing of this 
committee on the subject of teen suicide. We appreciate very 
much your being there that day, and appreciate your work on 
that.
    You are here today to talk about housing issues. Dr. Perez, 
thank you for joining us. You may proceed.

  STATEMENT OF Dr. JON PEREZ, DIRECTOR OF BEHAVIORAL HEALTH, 
                     INDIAN HEALTH SERVICE

    Mr. Perez. Thank you, Mr. Chairman.
    My full written remarks will be on the record, I trust.
    The Chairman. Without objection.
    Mr. Perez. I will make this short then.
    Good morning. I am Dr. Jon Perez, the National Behavioral 
Health Consultant with the Indian Health Service. I am here 
today to provide testimony on behalf of the Indian Health 
Service for this committee's oversight hearing on Indian 
housing.
    I understand I am not so much to provide data on housing as 
to provide context for this issue and offer some psychological 
perspective about what it means to live or not live in a home 
of one's choice, and to discuss the impact on individuals and 
families if they have no choice, substandard choices, or no 
home at all.
    The compact edition, Oxford English Dictionary, devotes 
almost three full pages to the word home. It is one of those 
big words with important and manifold meaning and much import. 
For our purposes today, however, allow me to focus on just one, 
which defines home as the place of one's dwelling or nurturing, 
with conditions, circumstances and meanings which naturally and 
properly attach to it and are associated with it.
    Psychologically, we speak of these conditions and 
circumstances as providing four basic things: Safety, security, 
nurturance, and respite. It is that physical place and 
psychological space that is among the most basic of our human 
needs and the most important to our healthy development.
    In plain English, it is the essential place where the 
person or family lives and is safe.
    In Indian communities across the country where housing is 
difficult to obtain or where waiting lists are long, 
individuals and families tend to end up in multi-family and 
multi-generational housing arrangements, or in a series of such 
places and arrangements.
    The transient or frequently changing living arrangements 
are the most difficult for children whose stability and 
subsequent development can be negatively affected by such 
moves. Even in the large extended family and clan relationships 
where three is generally easy movement among homes and 
families, the critical psychological process that is operative 
here is one of choice. That is, if people move of their own 
volition among family relationships, that I would advocate is a 
strength of the culture and community.
    However, if people are compelled to live this way because 
they have no other alternative, that is another and more 
troubling situation.
    Being forced to live in a place even among family where one 
does not want to live or may not even be welcome creates an 
environment where increased levels of anger, conflict and 
individual and familial distress are seen. Safety can be 
reduced, respite limited if not completely lost, and nurturance 
subordinated to tolerance or simply making it through the day.
    Because IHS does not specify living arrangements with our 
clinical documentation software, I do not have levels of 
homelessness or people forced to live in alternative housing 
arrangements among our patient population. However, in my over 
20 years of direct clinical experience with Native people from 
isolated communities to major metropolitan areas, I believe I 
can safely draw the following clinical opinion.
    Where people are not able to obtain housing, they are 
unable to create that definition of home, nor enjoy the 
benefits of such a place. In fact, the levels of distress and 
dysfunction increase markedly and can extend into multiple 
generations.
    Mr. Chairman, that concludes my prepared remarks. I would 
be honored to answer any questions you or the committee may 
have.
    [Prepared statement of Dr. Perez appears in appendix.]
    The Chairman. Dr. Perez, thank you very much. That is a 
different perspective, but an important one on the issue of 
housing and its impact on health and mental health. We 
appreciate your being here.
    Mr. Cabrera, first of all, thank you for your testimony. We 
will certainly consider that as we put together reauthorization 
bills. I am determined to try to move reauthorization bills and 
the one thing that we will do is we certainly will consider the 
recommendations you have offered, but one of the experiences of 
this committee has been in recent years that sometimes agencies 
offer ideas and recommendations, and we may not include all of 
them in the authorization bill, and then the bill gets held up 
and so on. I am determined to move these pieces of legislation.
    We will consult with you; get your best ideas; use those 
best ideas. We will put together our legislation. You have a 
chance to tell us what you think is wrong with it, and then we 
are going to move it. I am not going to hold up legislation 
because some agency decides that they don't like it much. We 
are going to exercise the prerogative of the Congress to move.
    I say that because I have had a discussion with the Justice 
Department in here just within the last couple of weeks on this 
subject. But your consultation is important to us. Your 
statement today I think gives us some good thoughts about how 
to proceed, and we will certainly consider them valuable and 
work with you. We appreciate your being here today and offering 
that kind of cooperation.
    You saw the pictures I used at the start of this hearing. 
You probably could make the point that you can find pictures 
like that in areas outside of Indian reservations. I admit that 
is the case, but I think it is acknowledged by almost everyone 
that this is a much more acute problem in Indian country on 
Indian reservations than in other parts of America.
    Would you agree that it is the case that there is such a 
built-up need and so few resources relative to the need that we 
are incrementally moving along, but not really making as much 
progress as we would like, at least not as much as I would 
like. Tell me what you feel about the progress we are making.
    Mr. Cabrera. I think the progress is very much incremental. 
I would agree with that. I think one of the struggles in my 
visits to Indian country is an uneven sense within TDHEs as to 
how to fully utilize programs. One of the things that I have 
found in Indian country is I can go to a reservation and folks 
are pretty fully utilizing 184, title VI, and their grant 
funds. And in other places, and I have had this experience 
recently, folks might not even know that 184 exists, or even if 
they do know it exists, not know how to use it to its full 
capacity.
    I think one of the things we have been trying to do, and 
certainly have been trying to do while I have been assistant 
secretary, is to make sure we reach out in every available 
forum to make sure that folks know the full breadth of how to 
use those programs.
    The Chairman. Can I ask, even if the programs are fully 
utilized at their appropriated level, isn't it the case, 
though, that we still fall far short? My understanding is that 
in 2006, tribes and tribal authorities built, acquired or 
rehabilitated about 1,600 rental units and 6,000 home ownership 
units, 7,600 homes. It seems to me that that is not a big dent 
in what is needed. I don't know what would have been done had 
the funds been fully utilized, but my guess is that we are 
still far short of doing what we should do to move aggressively 
to make a big dent in this problem.
    Mr. Cabrera. I think that one of the things that can help 
move things forward is to address those places where there are 
impediments to the use of other funds. One struggle I think 
that exists with a lot of TDHEs that are looking for new 
modalities in providing housing is that they keep running up 
against places inside either Federal regulation or Federal law, 
outside of NAHASDA, that impedes their use of the funds.
    A second one is cultural. In many places, for example, the 
preferred modality of living, of having a home, is to own it, 
which is fine; that is great. But in some places, the one that 
makes more economic sense is to create rental housing, but the 
rental housing culturally is not something that a particular 
tribe might want. So there are places where I think we would 
need to address that issue more forcefully.
    Finally, one of the things that we have been trying to do, 
and it is really an offer of availability more than anything 
else, but recently we reached out to all 561 TDHEs and we are 
trying to marry a convenient resource with something that 
exists right now, which was we have FEMA trailers and we are 
telling all of Indian country we have them, they are available, 
would you like them.
    That is something we have been trying to focus on.
    The Chairman. I assume the dream of home ownership is the 
same dream with the first Americans or Native Americans as it 
is for all Americans. About two-thirds of all Americans, at 
least the data I have, the national average of home ownership 
is about 67 percent, two-thirds of the American population. On 
Indian reservations, it is one-third.
    So that is obviously a dream deferred on Indian 
reservations. What is the result of that big gap, or what 
causes that?
    Mr. Cabrera. I think in one respect, one of the things that 
has been causing that is, frankly, legal. I think we have 
solved a good chunk of that recently with the MOU that we have 
with the BIA.
    The Chairman. Don't you think it is money?
    Mr. Cabrera. I don't think it is just money. I think a lot 
of it has to do with----
    The Chairman. Mostly money?
    Mr. Cabrera. You know, Mr. Chairman, I think that money is 
part of it. I am not going to say that, but I can't give a 
conclusion as to what it is mostly because it is also the fact 
that the way that housing gets done in Indian country is 
remarkably different, or it can be, than the rest of the 
country, mostly because it is on trust land or allotted land. 
And so now that we have an MOU that allows for those homes to 
essentially become part of the marketplace, that incidence of 
home ownership is actually going up. Just 4 or 5 years ago, in 
the 184 Program, I think we underwrote, as I recall, and I am 
happy to be corrected on this, but I think it was 65 homes. We 
are up to 1,700 homes in the last couple of years.
    The Chairman. But I think it is the case when you have one-
third of the Native Americans owning their homes, and two-
thirds of the American people on average, it is the case that 
Native Americans are being left behind here. So the question is 
what kind of goals can we establish to move up aggressively 
that home ownership rate?
    Mr. Perez makes the point that home ownership is an 
integral part of health issues. I assume, Dr. Perez, you look 
at these examples of shacks that are being lived in without 
running water, without electricity, that has serious health 
consequences.
    Mr. Perez. Yes; it certainly does.
    The Chairman. Stories of a young child living in a three 
bedroom home with 23 or 24 people in the home. I assume that 
has consequences for that child's mental health, has 
consequences for how much homework that child does at home. Is 
that correct?
    Mr. Perez. Yes, sir; it does.
    The Chairman. Senator Tester?
    Senator Tester. I am going to focus most of my questions to 
Mr. Cabrera. That does not diminish the statements you made at 
all, Dr. Perez. I think that the points you made about mental 
health and physical health are critically important when it 
comes to good living conditions.
    I want to focus a little bit on the 184 dollars. How is 
that money made available? That is the loan guarantee money, 
correct?
    Mr. Cabrera. Loan guarantee program, and so essentially 
what it does is it creates the liquidity available in the 
marketplace, in the mortgage-backed security world, to make 
that a fungible asset where it wasn't capable of being one 
before.
    Senator Tester. Through the banking industry?
    Mr. Cabrera. Correct.
    Senator Tester. Where are the 184 dollars used? Throughout 
the United States?
    Mr. Cabrera. They are used throughout the United States.
    Senator Tester. And it is specific to housing on Native 
American country? Right?
    Mr. Cabrera. Not just. You can use the 184 Program off-
reservation as well. It is available to anyone who is part of a 
tribe.
    Senator Tester. When we are talking about in Indian country 
itself, is it used for land purchases, as well as the house? Or 
pretty much specifically to the building itself?
    Mr. Cabrera. No; it is used for any number of things. It 
can be used for home equity. It can be used for the purchase of 
a home and for the construction of one. It can be used for a 
variety of things beyond just a single family home purchase.
    It has a very broad application. The only thing it can't be 
used for that we suggested today is for refinancing, which we 
would recommend that it be used for refinancing.
    Senator Tester. But it is for housing exclusively. It is 
not for businesses. It is not for infrastructure as far as 
sewers, water, and that kind of stuff. It is for housing.
    Mr. Cabrera. Correct. Title VI is for infrastructure and 
for other uses.
    Senator Tester. Okay. And you said in 2006, $190 million 
was spent, or made available?
    Mr. Cabrera. Guaranteed.
    Senator Tester. That $190 million was guaranteed. What was 
available in 2006? Did that use the entire appropriation?
    Mr. Cabrera. It did not use the entire appropriation as I 
recall. It would not be the appropriation, it would be the 
amount of authorized guarantee.
    Senator Tester. Okay. I am hesitant to bring out my 
figures, because I was just penciling them out here with a 
pencil, and there is about six more zeroes in these figures 
than I am used to dealing with. My calculator doesn't go up 
that high.
    But if my math is correct, $190 million, if you round it to 
1,200 households in 2006, that is right at $160,000 a house. 
Does that seem reasonable?
    Mr. Cabrera. It depends upon where you are buying the 
house. I mean, remember that these are places that that is an 
average. It could be much higher than that. The issue for the 
184 Program is who is the ultimate user. It is not just a 
member of a federally recognized Indian tribe, but it is also 
the tribe itself.
    Senator Tester. Okay. I am a bit confused, and I know 
houses up here on the Hill run $500,000 and up. Houses where I 
come from, you can buy a pretty doggone good house for $50,000 
or $60,000. I don't know where this is. Where is this located?
    The Chairman. That is Apache, New Mexico.
    Senator Tester. Compared to this, it is a giant leap. But I 
am curious is if the money is really getting to the housing. 
That is really my question, at $160,000 a pop.
    Now, I have to tell you I am a dry land dirt farmer from 
North Central Montana, where land sells for $700 an acre. And I 
don't want to say that have everybody rush to North Central 
Montana and buy land because it doesn't rain there and the wind 
blows a lot, so it is not a good place to go, but it is a great 
place to farm and live.
    But my concern here, quite frankly, is that $160,000 a 
house, when we are not talking about building mansions. We are 
talking about building something that people can live in. It is 
not like they have a hot tub in the back and all that stuff. Do 
you guys do accountability to make sure that this money is 
actually making it to the ground for the Native American folks 
who need the housing, because I think it is critically 
important.
    Mr. Cabrera. Yes; it would have to be. These are loan 
guarantees going to people who are served by NAHASDA. I think, 
Senator, we can provide you the data you would want in terms of 
what the price ranges are in different parts of the country. 
But real estate, as you know, because I think you are a pretty 
sophisticated dry dirt farmer, that varies all over the 
country. So if you are in, for example, Washington, you might 
have a higher per unit cost than you would, let's say, in 
Nevada.
    So we can provide that to you. We will be happy to do that.
    Senator Tester. That would be good to know because the 
areas that I am used to visiting in Montana, and that is all I 
can refer to, $160,000 is a lot of money.
    Mr. Cabrera. In the Northeast, though, where we have a lot 
of tribes, $160,000 is not. It actually is a challenge. And so 
the good news is the 184 Program is pretty flexible, so there 
is a wide variety of values.
    Senator Tester. I will just close by saying that I agree 
with the chairman's remarks that I think we need to invest more 
money in this program. But one of the things that really has 
amazed me as I become more and more involved at the Federal 
Government is we spend a lot of money on, for instance, I will 
give you an interesting example, and this is a little off-
topic, so forgive me, Mr. Chairman.
    There is a $300,000-study going on in Montana right now on 
a dirt project. You could buy all the land around it for 
$300,000. They are going to study it for $300,000. And $160,000 
is still a lot of money in my book, and I can tell you in 
Montana, when they are moving houses off of Malmstrom Air Force 
Base to the Rocky Boy Indian Reservation, that is not $160,000 
project.
    The Chairman. Senator Tester, thank you. You raise some 
excellent points. We have been involved with Walking Shield and 
other programs that move duplexes off of air bases that are 
going to receive new housing. Those duplexes, old, smaller 
duplexes are put on some foundations out on Indian 
reservations. I think what we will do is have the staff of the 
committee work with Mr. Cabrera and others to try to come up 
with some ideas about what the average cost is to create 
housing units and so on.
    I wanted to ask Dr. Perez, we have been concerned a lot 
about children, especially, with this committee. I mentioned 
teen suicide, but violence and substance abuse and other 
issues. Can you describe circumstances in which housing affects 
children's mental health, and the incidence of violence and 
abuse with children? Is there a connection?
    Mr. Perez. Sure. It goes back to the choices that I was 
talking about. When you have limited housing options, generally 
what happens is you fall back on family. There are very strong 
traditions for family support, as you have described in some of 
the photos, and that we deal with on a daily basis; strong 
clans, strong extended family relationships.
    What you have also described and what we have heard today 
is that you can have multiple families in one place at one 
time, and under the best of conditions, you are going to have 
problems. Now, when you are talking about violence and 
substance abuse, those sorts of things, if it is in that home 
and it is not part of what that family or that section of the 
family would otherwise want to be part of or close to, but you 
can't go anyplace else, certainly you are stuck there, and 
certainly you are going to be in a place for it to continue to 
take place, to not have that safety, to not have that respite, 
to not have that place to get away from it otherwise, of course 
it is going to continue.
    I think for me as a clinician, it adds to that calculus of 
despair, if you are talking about the poverty of possibility. 
It identifies itself in different ways, whether it is housing, 
whether it is education, whether it is family, whether it is 
substance abuse.
    I look at housing clinically as one of those variables, one 
of those factors that negatively affects so many of our people.
    The Chairman. Dr. Perez, thank you very much.
    Shelter is indeed one of the basics of life. Frankly, in 
this area, I think we are not doing such a good job. I am 
concerned about it and we are going to try to pass the 
reauthorization bills that are necessary to find the resources 
to improve on what we have done. We will be interested in 
continuing to consult with both of you.
    Mr. Cabrera, thank you for being here. And Dr. Perez, thank 
you for being here.
    Mr. Cabrera. Thank you, Mr. Chairman.
    The Chairman. We will call up the next panel.
    The next panel of witnesses will be John Yellow Bird 
Steele, who is the president of the Oglala Sioux Tribe in South 
Dakota; George Rivera, Governor of the Pueblo of the Pojoaque 
Tribe in New Mexico; Michael Cook, the secretary of the 
National American Indian Housing Council; and Juel Burnette, 
the retail supervisor and program director, Native American 
Housing Initiatives at Wells Fargo.
    I thank all of you for being here. Mr. Yellow Bird, you 
were at a listening session I held in Minneapolis, MN a couple 
of months ago. We appreciate your being here again. We will 
begin with you. I would ask all of you to summarize, if you 
would, the testimony that you will offer. Your entire 
statements will be a part of the permanent record.
    Mr. Yellow Bird, thank you for traveling to Washington, DC 
to be with us. You may proceed.

 STATEMENT OF JOHN YELLOW BIRD STEELE, PRESIDENT, OGLALA SIOUX 
                         TRIBAL COUNCIL

    Mr. Steele. Thank you, Senator Dorgan, for inviting me. I 
would like to thank all of the other witnesses. I believe that 
their testimony is very excellent and needed here.
    From the perspective of, and you know the conditions back 
home, Senator Dorgan, being from Montana--I mean North Dakota--
but I would say that I have a Code Talker on Pine Ridge. You 
should see his living conditions in Wanblee. You, the Senate, 
did consider a bill to honor the other Code Talkers in the 
Navajos, and he just was in my office I believe the day before 
yesterday. He wanted a little financial assistance. He was 
living with someone else, and now he wants to go back to his 
home, which was very unlivable during the winter, but he is 
going back there this summer, to those conditions.
    I would like to say that the 184 Program that was testified 
on here today, I don't think we have one participant from Pine 
Ridge, and I would believe, Senator, that from the price of 
those houses, that Montana doesn't have any participating in 
that program either. The people are unaware of the details of 
it. They are unaware of how to access it. I don't think they 
can find a bank to go with them to do the guaranteed program 
part of it. This is something we need to work on.
    And to answer your other questions about do the people want 
to live like the rest of America, yes. You know that no matter 
what their housing conditions, they have a TV. And they see the 
way America lives every day. And they just want to live like 
the rest of America.
    Senators, this is why when we as responsible for their 
welfare and running the Government come up here, we always 
holler about our treaties. This establishes the relationship we 
have with the Federal Government, and the different laws that 
have been passed by the U.S. Congress dealing with the Indians. 
In 1877 when they first established the reservations, and 
killed all the buffalo, they promised to aid the individual 
Indian and tribes in whatever to see that they were civilized 
and were able to live like the rest of America.
    We still have what is called a commodity program in USDA, 
but that doesn't address, and we see it and we interpret that 
1877 Act as having responsibility also for housing, because of 
the hides of the buffalo. These were our homes that were taken 
away in the past. The Federal Government has an obligation to 
aid the individual Indian in the housing area.
    Now, the way I personally see this, Senators, is that I 
have a term for it. I call it inherent Federal neglect, whereby 
through most of the 1900's, all the Federal departments had 
nothing to do with it, a very large land base in the middle of 
the United States called the Pine Ridge Indian Reservation in 
South Dakota. They said that was Indian Health Service and 
Bureau of Indian Affairs responsibility.
    I don't fault them, because of the scope of the 
responsibilities that they had, but the infrastructure isn't 
there for economic development to happen. The tribes in the 
past few decades have been working on this infrastructure, very 
much, very hard, so that economic development with private 
entrepreneurs and turning over that dollar can happen. We 
worked on our water, yes. We got help from the Senate. We thank 
you very much for that. We just took over the responsibility of 
roads here about 4 years ago from the BIA. They patterned our 
roads different. I mean wrong. And they are sending our dollars 
directly off-reservation. It is easier to get goods and 
services off-reservation.
    You can't turn over that dollar in our communities, which 
is economic development in our local areas. We worked on 
communications. We got cell towers up. Solid waste, we got a 
system because we are a very large reservation with a lot of 
people, and we had to come up with our own system and disposal 
according to EPA standards.
    Housing and health care are very hard to address. Housing 
is so great in magnitude that you don't want to work with the 
Housing Authority back home, because every day you are 
inundated with requests from individual people like the Senator 
mentioned some of them here, but each and every one of them.
    And the living conditions, Senators, is as you described 
them. I give you Senators my two daughters' living conditions, 
and that is just from my private family. This is just about 
with every family. And last night, my eight grandchildren, and 
mother and father, lived, slept in this donated home from 
Michigan, Grand Haven, Michigan. You know how they pull out 
those rooms that makes an extended living room? Well, that 
wasn't there, and it was just an open space of about 15 feet.
    My son-in-law, with scrounged-up materials from his Grandpa 
Joe White Hawk and myself, built that wall in there. The 
furnace doesn't work, I said. They installed their own wood 
stove with the chimney going out of one of the windows. That is 
their only heat. It is an outside outhouse, and it is not a 
good constructed outhouse. It is put together with materials 
that they found in different places also.
    And I have another daughter living in a trailer donated out 
of Denver. And it is with these two inch walls, and people 
weren't living in it down there because different States have 
upgraded their codes for mobile homes. They have to get rid of 
them and it costs them to take them to the dump, so they give 
them to the reservation and we get some monies here and there 
to get them dragged back to the reservation.
    But these living conditions are just such that they watch 
the TV, my two daughters, both don't have TVs. Well, they have 
TVs, but they can only see the videos on them. They can't get 
reception with an antenna because of the location of their 
homes so far into a rural area. But the roads to their homes 
wrecks their cars, and the poverty that exists prevents them 
from taking part.
    Secretary Cuomo during the Clinton Administration, I met 
with him. And he said, John, let's do 200 homes on Pine Ridge 
this year. And he was so enthusiastic, he thought it was just 
that we could go down there and do them. When we got there, he 
did some job fairs in several parts of the reservation. And to 
date, after several, several, several years, that program has 
developed into what we call the Partnership for Housing. And 
the 200 homes, after all of it he wanted to do in 1 year, after 
all of these several years, only has 70 people that it has 
served. And that is because of the poverty. People are not able 
to get a mortgage like the rest of America.
    And this is for several reasons. One of the main reasons is 
Indian Health Service. They sent my mother up to Rapid City for 
an MRI x-ray. She has a bill for $6,000 she can't pay because 
she is just on SSI and a little bit of Social Security. Her 
monthly expenses are just with that. She can't pay that and she 
has a bad credit rating. Now, this applies to a lot of the 
people back home.
    She went up in good faith because they had made the 
appointment. They sent her up. It was her back. And then they 
don't pay. And so a lot of this bad credit, people can't take 
care of. And a lot of people just don't have a credit rating at 
all, because they haven't been able to get a loan anywhere. 
They don't have any kind of relationships with financial 
institutions to get a credit rating.
    The Chairman. President Steele, I want to interrupt you 
just for 1 moment, because I want to get to hear the other 
witnesses as well before we ask questions.
    Mr. Steele. Yes, sir.
    The Chairman. Your two daughters live in these trailer 
homes. Do either of the homes have indoor plumbing?
    Mr. Steele. No; they don't even have running water near 
their homes. They haul water.
    The Chairman. And they use a wood stove?
    Mr. Steele. A wood stove, yes, that was just for heat and 
then they have----
    The Chairman. How many people live in the trailer? There 
are two trailers. How many people live in them?
    Mr. Steele. Two trailers. One daughter and her husband have 
eight children. My other daughter has three children, and is 
expecting another one in another couple of months.
    The Chairman. So you have 11, soon to be 12 grandchildren 
living in homes without running water, without indoor toilets.
    Mr. Steele. Yes, sir.
    The Chairman. Well, I think, in your describing the 
circumstance of contract health care, which is another issue, 
and the ruining of credit ratings for people. So I appreciate 
it. Your testimony is more direct and more gripping on this 
subject because you and your family live it. Your willingness 
to come and speak on behalf of our tribe is very much 
appreciated. We appreciate that a lot.
    We would like to ask you some questions, if you could hold. 
Do you want to make a last comment before I turn to Mr. Rivera?
    Mr. Steele. I would just like to thank you, Senator, for 
holding this hearing.
    [Prepared statement of Mr. Steele appears in appendix.]
    The Chairman. It is not easy for you to come here and speak 
publicly of these circumstances, but doing so I hope will help 
your family and others as well. You as president of the Oglala 
Sioux Tribe I know have a great passion to try to improve 
things for the members of your tribe. You are great to come 
here and it will make a difference.
    Mr. Steele. Thank you, Senator.
    The Chairman. Mr. Rivera is the Governor of the Pueblo of 
Pojoaque, NM. That is a small tribe in New Mexico. You are 
going to talk about how you have used NAHASDA funding. Thank 
you very much, Governor.

STATEMENT OF HON. GEORGE RIVERA, GOVERNOR, PUEBLO OF POJOAQUE, 
                          SANTA FE, NM

    Mr. Rivera. Thank you, Mr. Chairman, Senator Tester. Thank 
you for having me here today. I also have with our Housing 
Director, Alan Martinez and our attorney, Frank Demolli. We 
have submitted a written statement. We wanted to come here 
today to support the reauthorization of NAHASDA and talk about 
the Pueblo of Pojoaque and how we have used it, and some of the 
recommended changes that would make NAHASDA better.
    First of all, the Pueblo of Pojoaque is a very small Pueblo 
in Northern New Mexico. We are about 374 tribal members. We 
have a long history and heritage in building and in housing. In 
fact, the Santa Fe area and the whole Southwest has become 
famous based on Pueblo housing and the architectural style 
there.
    We do have a construction company that works on our own 
buildings, our traditional buildings, as well as our housing 
projects. We have been able to utilize our construction company 
to help us implement our new housing projects with NAHASDA 
funding, plus State funding, with Federal funding and private 
institutions.
    Good morning, Senator.
    We are here today to present to you a couple of ways that 
NAHASDA funding formulas can grow with the new structures of 
alternative housing. I think some of them were mentioned by the 
earlier presenter, but we have run into some roadblocks. 
Recently, we built 50 homes in the last 7 years. As I said, we 
are a small tribe, so that is not a big number, but it is a 
fair number of homes for our size.
    Phase 1 was 30 homes and then 20 homes. And one of the 
conflicts that we ran into is that the way that NAHASDA is 
written, it doesn't allow IHS to match NAHASDA in a way that 
the tribes can really maximize both of those. So I think 
language that makes NAHASDA more flexible in terms of matching 
and working with other Federal entities, as opposed to it 
becoming a penalty, and then us not even being able to use 
NAHASDA.
    In our second phase, we didn't use NAHASDA for that reason 
because the IHS money was a larger pot of money and it would be 
more beneficial, but what it did do is to take away from the 
whole project. We weren't able to use NAHASDA so we weren't 
able to complete all of the infrastructure.
    I think when we talk about construction of new homes and we 
do have infrastructure to consider, so although the prices of 
our homes are up at over $100,000 per unit, that also includes 
water, sewer and all the other utilities that need to be 
brought into the area, including paved roads. We have also 
leveraged the BIA funding to pave our roads.
    Really, what we are looking for is some formulas in NAHASDA 
that can help the Pueblo to better balance against the other 
Federal, State, and private funding, so that the tribe can 
benefit from it the most. We look forward to working with you 
and your staff on coming up with some language to do that.
    [Prepared statement of Mr. Rivera appears in appendix.]
    The Chairman. Well, Governor, we will be interested in 
talking to you further about your experience as we put together 
this reauthorization bill. The ability to remove impediments is 
really very important as we try to increase the housing stock.
    Your Senator has shown up, a member of this committee, 
Senator Domenici from New Mexico, and we have just heard from 
the Governor, Senator.
    Senator Domenici. First of all, I made a special effort, 
Mr. Chairman, because George Rivera is a distinguished leader 
of not only of his tribe, his Pueblo, but throughout New 
Mexico, the Indian people, they know when there is somebody 
that is a leader, and you can feel it and see it. And he is 
one. I came to congratulate him on what he has been able to do 
with the small amounts that this bill permits.
    Clearly, the key to it is when we draft a new bill is to 
not make it more rigid, but to rather make it more loose in 
terms of what you can put together in order to match and get 
more for your dollar. I know that is what you are interested 
in. I have heard you say that, and I know these Governors are 
fully aware that that is one of the big problems.
    Thank you, Governor.
    Thank you, Mr. Chairman.
    The Chairman. Senator Domenici, thank you. Senator Domenici 
and I held a listening session in Albuquerque, NM with some of 
the tribal leaders and tribal members. Senator, that was a very 
informative time for me to have a chance to hear some of the 
leaders from Indian tribes that I had not previously had a 
chance to meet. So thank you very much.
    Michael Cook was to be the next witness. My understanding 
is that Paul Lumley is here in his stead. He had to cancel. 
Michael is secretary of the National American Indian Housing 
Council. The National American Indian Housing Council will be 
represented today instead by Paul Lumley. Mr. Lumley, you may 
proceed.

         STATEMENT OF PAUL LUMLEY, EXECUTIVE DIRECTOR, 
           NATIONAL AMERICAN INDIAN HOUSING COUNCIL, 
        ACCOMPANIED BY DENNIS DANIELS, DEPUTY EXECUTIVE 
                            DIRECTOR

    Mr. Lumley. Good morning, Chairman Dorgan, Senator Tester, 
and Senator Domenici. It is a great honor to be here this 
morning to testify. I thank you for the invitation.
    My name is Paul Lumley and I am the executive director of 
the National American Indian Housing Council. I am also a 
citizen of the Yakama Nation. Since 1974, the NAIHC has 
assisted tribes with their self-determined goals of providing 
culturally relevant, decent, safe, sanitary, and affordable 
housing on Indian reservations, in Indian communities and 
Alaska Native villages, and on Native Hawaiian Home Lands.
    It is an honor to appear before you today to provide our 
views about the reauthorization of NAHASDA.
    Built on the solid foundation of Indian self-determination 
law and policy, NAHASDA was signed into law in 1996 and was 
enacted to recognize tribal authority to provide housing and 
related infrastructure to their members in a way that maximizes 
tribal decisionmaking and flexibility in meeting their housing 
goals.
    In launching NAHASDA, Congress made clear that it was 
acting pursuant to the trust responsibility owed by the United 
States to the Native people of this land. NAHASDA encourages 
tribes to administer their housing programs according to the 
unique and local circumstances of each Indian tribe. It also 
enables greater tribal participation in regulations through the 
negotiated rulemaking process and spurred housing development 
through the leveraging of Federal funds.
    Congress also found that in meeting its trust 
responsibility, it should recognize the right of Indian self-
determination and tribal self-governance by making assistance 
directly available to Indian tribes. Without a doubt, self-
determination was and continues to be the hallmark of NAHASDA.
    Ten years into NAHASDA now, we have seen the key element of 
the law, the Indian Housing Block Grant, become the largest 
source of housing capital in Indian country. Since fiscal year 
1998, over $5.7 billion in housing assistance has helped Indian 
families make down payments on homes, make monthly rents, 
helped with home rehabilitation and new construction. Prior to 
NAHASDA implementation, an estimated 2,000 units a year were 
being built; 6,000 units were built in NAHASDA's first year 
alone. By all accounts, it has been a tremendous improvement 
over the previous Federal housing statutes.
    NAIHC is composed to 450 members and is the only national 
Indian organization representing Native housing interests. On a 
consensus and grassroots basis, NAIHC is proposing amendments 
to the law. On behalf of our membership, we have been working 
with committee staff on proposed amendments to the law. I would 
like to highlight four of them.
    First, in the area of Indian self-determination, clarity in 
the law is needed on Housing and Urban Development's oversight 
role. We need uniform application of the law across the six 
regional offices.
    Second, similarly, the NAIHC membership proposes that 
Congress respect tribal authority when it comes to determining 
the minimum and maximum rents for NAHASDA-funded rental units. 
They propose lifting the so-called 30 percent rule which 
prevents tribal administrators from charging members more than 
30 percent of their annual income per month.
    Third, members also ask that homes built with NAHASDA funds 
be included as part of the current assisted stock. It makes no 
sense to build homes with NAHASDA funds and then not allow them 
to be maintained with the same funds.
    Fourth and finally, infrastructure development needs to be 
directly addressed in the implementation of NAHASDA. For 
example, tribes need to be able to provide the desperately 
needed sewage systems before homes are built.
    All in all, NAHASDA has been a major shift of Federal 
Indian policy. It must further evolve to accommodate Indian 
country's growing population. NAHASDA confirmed what we knew in 
our hearts, and what has been repeatedly made clear through 
research such as that from the Harvard Project on American 
Indian Economic Development:

    When tribes make their own decisions about what approaches 
to take, and what resources to develop, they consistently out-
perform non-tribal decisionmakers.

    Robust housing programs, economic development and self-
sufficiency are all great things to talk about, but to make all 
our efforts bear fruit, tribes need adequate funding. Indian 
communities still have among the poorest housing conditions in 
the Nation. We therefore encourage the committee and Congress 
to seek additional funding for the Indian Housing Block Grant.
    The NAIHC estimates a need of $750 million to meet current 
Indian housing programs needs.
    In the future, as Indian nations become more and more self-
sufficient, the Federal Government's assistance will not be as 
crucial, but we are not there yet. We ask you to reauthorize 
NAHASDA and to give us the flexibility to achieve our hopes of 
adequate housing of all America's people.
    Before I conclude, Mr. Dorgan, I do want to add a few 
personal notes. I do want to thank you for being very aware of 
how housing transcends many other areas of our lives. The need 
to improve health and education, I have lived through those 
personally. I have been homeless. I have lived in substandard 
housing. I have reached and exceeded great odds to get to where 
I am today. I have lived through those conditions.
    So I have seen it first-hand. I know what it means to live 
in overcrowded housing.
    I would also like to add that as a part of being the 
American Dream, building personal home equity is very 
important. We have seen from gaming enterprises, in a handful 
of communities, we have seen equity being built. But in order 
to really achieve the American Dream nationwide, the American 
people need to build personal home equity. It will also add to 
the economic development initiatives that we definitely want to 
work with you on.
    So thank you, Mr. Chairman. I appreciate the opportunity to 
testify today. Thank you.
    [Prepared statement of Mr. Lumley appears in appendix.]
    The Chairman. Mr. Lumley, thank you very much.
    Tell us where you grew up and what tribe you were 
affiliated with?
    Mr. Lumley. I was born and raised on the Yakama 
Reservation. I also lived a short time on the Nisqually 
Reservation.
    The Chairman. And the location of the Yakama Reservation?
    Mr. Lumley. It is located in Washington State.
    The Chairman. Thank you very much. Thank you for being 
here.
    Finally, Juel Burnette, who is the rail supervisor and 
program director of the Native American Housing Initiatives 
with Wells Fargo.
    Mr. Burnette, I appreciate your being here.
    I want to say, too, that I will at some point have to 
depart. I am scheduled to speak on the Floor of the Senate in 
just a bit. When I do depart, Senator Tester has agreed to 
continue chairing the hearing and inquiring of the witnesses. I 
certainly appreciate Senator Tester's active participation on 
this committee and interest in these issues.
    In the meantime, Mr. Burnette, why don't you proceed with 
your testimony?

   STATEMENT OF JUEL BURNETTE, RETAIL SUPERVISOR AND PROGRAM 
   DIRECTOR, NATIVE AMERICAN HOUSING INITIATIVES, WELL FARGO

    Mr. Burnette. Thank you, Mr. Chairman, Senator Tester, and 
committee members. Thank you for the invitation to testify 
before the Committee on Indian Affairs regarding the various 
Indian housing programs that fall under this committee's 
jurisdiction. I am honored to be here.
    My name is Juel Burnette. I am the Native American lending 
sales manager for Well Fargo Home Mortgage, based in Sioux 
Falls, SD. Wells Fargo Home Mortgage has full-time mortgage 
consultants based in Arizona, Montana, New Mexico, Oklahoma, 
and South Dakota who work directly with Native American 
customers on home loans across the United States.
    For many years, Wells Fargo has been pleased to work with 
this committee, as well as with individual members on various 
Federal initiatives to improve the availability of credit for 
Native Americans. We look forward to a continued collaboration 
with Congress, tribes and relevant organizations as Congress 
proceeds with the reauthorization of Indian housing programs.
    Wells Fargo has been serving Native American tribes for 
more than 50 years. Today, we provide capital and financial 
services to more than 150 tribal nations across the United 
States. We have been a leading home mortgage lender to tribal 
nations for more than 25 years, and Wells Fargo was the first 
financial services company to originate a home mortgage loan on 
tribal lands.
    In 2005, we closed mortgage loans on 47 different 
reservations in 20 different States. We were also the first 
major national financial services company to dedicate more than 
10 professionals to serve Native American and tribal nation 
housing needs. In 1991, we created Native American Banking 
Services, a specialty financial services group for tribal 
nations.
    The role of this group is to develop non-gaming credit 
opportunities with tribal governments and middle market Native 
American-owned companies. The group also supports tribal 
relationships and underwrites the sovereign risk associated 
with all lending to tribal nations and governments, both on 
taxable and tax-exempt loans.
    I have appended a fact sheet summarizing our Wells Fargo 
programs tailored for use on tribal lands and to Native 
Americans. I ask that it be made part of the committee's 
hearing record.
    The Chairman. Without objection.
    [Referenced document appears in appendix.]
    Mr. Burnette. Today, I would like to concentrate my remarks 
on a few main issue areas: First on the viability of the HUD 
Section 184 Loan Guarantee Program; and second, concerns with 
the Bureau of Indian Affairs Land Titles and Records Office.
    As you know, the HUD Section 184 Program was created by the 
Housing and Community Development Act of 1992. This program 
offers a loan guarantee to private sector lenders such as Wells 
Fargo Home Mortgage, who then make mortgage loans to eligible 
borrowers for homes on Indian land, near reservations, and 
other eligible areas.
    In 2006, Wells Fargo's Native American Lending Group 
originated 241 HUD 184 loans. This is an all time high for 
Wells Fargo and leads all financial services companies. We 
strongly support reauthorization of the HUD 184 Program. We 
believe that the HUD 184 Program could be improved with 
addition of staff. Currently, there are only two HUD Office of 
Native American Program underwriting staff members. While these 
two individuals do an outstanding job, we believe that 
additional staff would increase efficiency and better 
accommodate for increased utilization of this program.
    With regard to the Bureau of Indian Affairs Land Titles and 
Records Office, a number of areas could be improved. We believe 
that lenders, borrowers and others involved in the process 
would greatly benefit from the development of a streamlined, 
consistent policy for a timely processing and delivery of 
necessary documents.
    Unfortunately, we have experienced a number of 
inconsistencies with requests for documents such as recorded 
homesite leases and certified title status reports. In fact, I 
have been working with the Pacific Regional Office and the 
Southern California Agency for the past three years on 
obtaining recorded mortgage documents and the certified title 
status report. These delays are the most significant barrier to 
providing more home loans to Native Americans in a State that 
has more tribal nations than any other State in the country.
    With these challenges, there are also successes within the 
Bureau of Indian Affairs that should be recognized. The work of 
Nila Solaman and Brenda High Rock at the Great Plains Regional 
Office is exemplary. Their consistent, timely processing is an 
example that should be followed throughout the agency. BIA 
agencies located at the local reservation level should be 
commended for their efforts to facilitate processing of 
requests as well. The Northwest Regional Office in Portland, OR 
and the Southwest Regional Office in Albuquerque, NM have been 
helpful, particularly when receiving requests from the local 
agencies.
    The personnel at the regional offices do a lot of good 
work. However, consistent and streamlined processes would 
facilitate the lending of more mortgages and greater 
utilization of these housing programs.
    In closing, Mr. Chairman, I would like to thank you and 
members of the committee for the opportunity to present our 
views on Federal Indian housing programs. In our view, a 
partnership among all interested parties is critical for 
financial success on tribal lands. I would be happy to respond 
to any questions that you may have. Thank you very much.
    [Prepared statement of Mr. Burnette appears in appendix.]
    The Chairman. Mr. Burnette, thank you very much.
    I will have to leave momentarily, but President Steele, let 
me ask you. How long have you been president of the Oglala 
Sioux Tribe in South Dakota?
    Mr. Steele. Sir, I was 2 terms on the tribal council, 2 
terms as vice president, and 5 terms as president.
    The Chairman. So you have been a part of the governing body 
of that tribe for some long while.
    Mr. Steele. Yes, sir.
    The Chairman. Let me ask your perspective about the housing 
situation on your reservation only. Is it getting better, 
substantially better, dramatically better? Or is it about the 
same?
    Mr. Steele. It is getting substantially worse. We have a 
very much increased population. We have 1,700 HUD homes right 
now. They haven't been supplying the homes under NAHASDA that 
they should, we think. Partnership for Housing supplied 70, as 
I said, a new program that Secretary Cuomo tried to institute.
    The housing situation, it is very hard to be in any of 
those areas of the NAHASDA housing authority because of the 
need. People are just so hard up for homes. It is really 
pitiful.
    The BIA has zeroed out the home improvement program, [HIP] 
which hurts us. They zeroed out their social services almost 
program, and they told me when I went over here at Washington 
that we zeroed it out because we knew you would go to your 
Senators and get it reinstated. This is not right. It goes to 
show that we don't need social services, when that is the most 
important program to us.
    The burial insurance, the training program, tribal work 
experience program, their reasoning is out of line here in 
zeroing out those programs, especially the HIP.
    The Chairman. Mr. Steele, you heard the testimony of 
Assistant Secretary of HUD, Mr. Cabrera. I think the testimony 
from the Administration here is that a lot of programs are 
working, making some progress and so on. And yet you say the 
housing situation on your reservation is getting worse, not 
better. How do you reconcile that?
    Mr. Steele. I think that one of the things we have been 
trying to address with the tribe in NAHASDA is their formula 
for allocating the monies. I have a whole county that they 
won't count the population. It is part of the reservation 
because of a 1910 criminal court case in Martin, SD, they said 
it wasn't part of the reservation. And so it has always been, 
since the reservation was first created, a part of it.
    But because of that, the BIA says no and the Census 
Department does not count all of those people in there. When I 
questioned them, they said you can look at it as tribal members 
on trust property adjacent to the reservation. And they used 
the Census figures in the allocation of that money, and it is 
not all of our people there. But we do service them anyway.
    The Chairman. First of all, thanks to the other three 
witnesses. I regret I don't have the time. I have to be over on 
the Floor of the Senate right now. But thank you very much for 
appearing and contributing to this discussion that we are 
having as we start this process of putting together the 
reauthorization bills, and think through what we can do to try 
to light a fire under all the agencies and the circumstances 
that need prodding to try to begin to make some real 
improvements in this area.
    Again, Senator Tester has indicated he will continue to 
chair to the end of the hearing, and I am sure he has questions 
as well.
    Senator Tester, thank you very much.
    Senator Tester. [presiding]. Thank you, Mr. Chairman. I 
appreciate your leadership on this committee on all the issues 
that are important in Indian country. Give them heck on the 
Floor.
    I will just continue a little bit with President Steele. 
You said you have about 1,700 homes that are HUD homes 
currently.
    Mr. Steele. Yes, sir.
    Senator Tester. Can you just give me a ballpark on what is 
the total need out there for homes?
    Mr. Steele. I think somebody wrote my testimony and put 
3,000 homes needed.
    Senator Tester. About 3,000.
    Mr. Steele. We need more than that, Senator. I need about 
4,000 homes.
    Senator Tester. Is that over and above the 1,700?
    Mr. Steele. Yes.
    Senator Tester. Okay. And the black mold issue has been 
something you have been dealing with. How responsive has the 
BIA and IHS been to that?
    Mr. Steele. There is no response from any Federal 
department, sir.
    Senator Tester. None whatsoever? Okay.
    I want to echo the chairman's comments about the fact that 
you bring a sense of reality to this issue. I appreciate your 
coming here today.
    Mr. Steele. Thank you.
    Senator Tester. I have some questions for, hang on here for 
a second, for Governor Rivera. First of all, have you been able 
to utilize the NAHASDA grant funding in your building programs?
    Mr. Rivera. Yes, Mr. Chairman; we have been able to use 
NAHASDA and we leveraged it with other Federal, State, and 
private funding, banks basically.
    Senator Tester. Okay. And what, if any, difficulties have 
you encountered with NAHASDA?
    Mr. Rivera. In 2000, we did 30 homes, a $5.5-million 
construction project, and $36,000 a year from NAHASDA went 
toward this project. The biggest problem was that when we went 
to go to the second phase, it became almost like a penalty when 
we tried to use NAHASDA again because we were looking at IHS, 
BIA, financial institutions, the State tax credit programs, to 
put it all together, and NAHASDA actually became a conflict 
with the Indian Health Service funding that we use for 
infrastructure.
    Senator Tester. I got you.
    Mr. Rivera. So we chose to use Indian Health Service 
funding because it was a higher dollar amount and the 
infrastructure was needed.
    Senator Tester. So the $36,000 was NAHASDA funds per house? 
Is that what you are saying?
    Mr. Rivera. No; that was for the whole project.
    Senator Tester. For the whole project.
    Mr. Rivera. Yes; for 30 homes.
    Senator Tester. Could you just give me, and this may be 
unfair because I know you don't have all these figures in your 
head, but how much of that was NAHASDA of the $36,000?
    Mr. Rivera. The $36,000 was NAHASDA.
    Senator Tester. Oh, okay.
    Mr. Rivera. The $36,000 out of $5.5 million in the total 
housing project, and $36,000 is what NAHASDA put in.
    Senator Tester. Total?
    Mr. Rivera. Yes.
    Senator Tester. Okay. All right.
    Mr. Lumley, once again thanks for being here. From your 
perspective, what are some of the major barriers in utilizing 
the Indian Housing Block Grant Program?
    Mr. Lumley. The largest barrier is not necessarily related 
to the act itself, but in terms of the funding level, which I 
have heard from my members as being inadequate. So my member 
tribes have been working to increase the funding level.
    Senator Tester. Okay.
    Infrastructure is a huge issue in Indian country. Any 
recommendations there?
    Mr. Lumley. I would take a regional approach to addressing 
infrastructure issues. Each region of the country is completely 
different. In some areas of the country you have problems with 
energy and water. In other areas, you have problems with 
temperature, great temperature swings. So each region has a 
completely different infrastructure issue.
    Senator Tester. Okay. Going back to block grants for a 
second. You said, and correct me if I am wrong, there was $750 
million that went out in block grants. I think that was 
correct. Is the demand significantly more than that? And how 
much more?
    Mr. Lumley. Actually, I think we are recommending that it 
be $750 million. Right now, it is $627 million.
    Senator Tester. Okay. That is good. Thank you.
    All right. Mr. Burnette, I want to first of all thank you 
very much for the work that you and Wells Fargo have done in 
Indian country. We have a few questions.
    Wells Fargo has about 241 loans under the 184 Loan 
Guarantee Program, is what I believe you said. Were all these 
loans for homes built on tribal land?
    Mr. Burnette. The 241 was what we did in 2006, Senator.
    Senator Tester. On tribal land?
    Mr. Burnette. Yes; and we have had constant growth every 
year as far as our program participation. Actually, what I said 
was this is our greatest year to date.
    Senator Tester. Can you give me some of the barriers that 
Wells Fargo has as far as providing those loans on tribal 
lands?
    Mr. Burnette. Going back to answering your previous 
question, a majority of those loans were done in the tribal 
service area, and that is something that we really focus on. We 
don't want to forget what the program was really designed for, 
was those Native American families living on or within the 
service area of the reservation.
    Senator Tester. Right.
    Mr. Burnette. As Mr. Cabrera alluded to earlier, the 
program is allowed to be used outside of the service area in 20 
or 21 different States. So I think South Dakota is the third 
leading State as far as the number of 184 loans done per State. 
We have Oklahoma and Alaska that lead the way as far as number 
of loans done in those States.
    Senator Tester. Let me run that back one more time, repeat 
what you said. South Dakota is number one?
    Mr. Burnette. South Dakota is number three. Oklahoma then 
Alaska then South Dakota then California, I believe. I think 
Wisconsin is in there pretty close, too, as far as number of 
loans done due to the 184 Program.
    Senator Tester. Just hang on here for a second.
    President Steele, your tribe is in South Dakota, correct?
    Mr. Steele. Right.
    Senator Tester. Are there a lot of other Native American 
tribes in South Dakota?
    Mr. Steele. Yes; nine of us.
    Senator Tester. There is nine of you? Okay.
    Mr. Steele. The service area is not on-reservation.
    Senator Tester. Got you. Okay. A point well taken. Okay.
    What kind of barriers, Mr. Burnette, do you see as far as 
giving loans in Indian country?
    Mr. Burnette. The committee has touched on a few, 
infrastructure being a major one. The BIA, as I mentioned, is a 
huge obstacle in some cases. In the Great Plains Region it is 
not, but throughout the country, as I mentioned in my previous 
testimony, that we have closed loans on 47 different 
reservations in 20 different States. We work to try and partner 
with the BIA in many cases when we are dealing with trust land. 
But infrastructure, as far as the Native American population 
wanting to live out in an area of their own lands, if you will, 
there is the cost to develop that area.
    Senator Tester. I want to touch on getting those documents 
from the BIA for a second. Can you give me an average length of 
time?
    Mr. Burnette. Anywhere from 30 days to 3 years.
    Senator Tester. Have you had to deny any loans because of 
that length of time?
    Mr. Burnette. No; we just keep plugging along and being a 
thorn in your side, if you will, in asking for the documents 
month after month.
    Senator Tester. Why would it take longer than 30 days? Any 
ideas?
    Mr. Burnette. Yes; The BIA, if you call them, they will 
tell you that they are severely behind in their recording 
process, and they are not funded appropriately to staff the 
number of employees that they need to catch up on this 
recording process. And that is consistent I believe nationwide, 
if you were to call the BIA. In some cases, regionally, it is 
better than others. As I mentioned in the California area, 
compared to South Dakota and the Great Plains Region, it is 
like day and night, Senator.
    Senator Tester. California is better?
    Mr. Burnette. California is way worse.
    Senator Tester. So would the number of loans that you have 
in Alaska, Oklahoma, and South Dakota correlate to the length 
of time when you get these documents back?
    Mr. Burnette. The reason being Alaska and Oklahoma lead the 
way, Senator, is because a majority of the land, probably 90 
some percent of it, is all fee simple, so we are not dealing 
with the BIA. So that attributes to their success.
    Senator Tester. So it does directly impact your ability to 
give loans in Indian country.
    Mr. Burnette. Yes; for your home State, we are involved in 
the Rocky Boy Project. We are still waiting for that certified 
title status report to proceed with those 64 units.
    Senator Tester. All right.
    I want to talk a little bit about credit, lack of credit, 
bad credit. What kind of role does that play in your ability to 
give loans to individual Indians?
    Mr. Burnette. Mr. Steele hit it right on the head. A 
majority of the time we are running into medical collections 
that hinder the progress of Native Americans pursuing their 
dream of home ownership.
    Senator Tester. Yes.
    Mr. Burnette. The program requirements are that there 
cannot be any outstanding judgments or collections that are 
showing unpaid on their credit bureau report. So that hinders 
the process. This program is not a credit score-driven program, 
so we are not concerned about what the credit score is. We are 
concerned about what the makeup of the credit bureau report is 
and what is on there as far as open collection items, judgments 
that are unpaid and what have you.
    We see a lot of medical bills that IHS has not paid for in 
Mr. Steele's example that he provided.
    Senator Tester. Okay. So other than the health care and 
unpaid medical bills which you encounter when IHS runs out of 
money, are there any other credit issues that appear to be 
unique to Native Americans?
    Mr. Burnette. No; really, it gets a little easier from 
there. Sometimes we run into a problem with debt to income 
ratios with Native American families; you know, the necessity 
for a good operating automobile.
    Senator Tester. Okay. Can you give me an idea of what your 
average loan is on the 184 Program?
    Mr. Burnette. I was hoping you would ask me this question. 
Our average last year was $178,000, but that is really skewed 
high because of some of the higher cost areas that we have done 
loans in. For example, Florida, we can't do a loan in Florida, 
build a home for less than $300,000. So our average loan size 
in Florida is probably in the mid-$400,000. That really skews 
the average.
    I think if you take those loans out of the average, I think 
we are right around the $100,000 mark.
    Senator Tester. Okay.
    Mr. Burnette. So if you look at nationwide, I think Mr. 
Cabrera talked about it, it matters on the geographic location 
of where you are really doing business at.
    Senator Tester. Okay. One more question on that topic, and 
that is administrative costs. Do you think that, in your 
opinion, because you are on the ground, you are one end, and 
the folks that are trying to get the house are on the other 
end, do you think that there is excessive administration costs 
with this money? Is it getting down the ground, I guess that is 
the question.
    Mr. Burnette. I have seen a lot of progress in the last 2 
years, Senator. The HUD ONAP office has done a lot of outreach 
to tribes trying to make them aware of the program. As you can 
see in the numbers, it has drastically increased over the last 
two years as far as the number of people who have participated.
    So I think we are making headway with the program. Is there 
a lot of work that can still be done? Absolutely.
    Senator Tester. Do you have any recommendations on that 
work? I would sure like to hear it. You don't have to give it 
today. I mean, just pass it along, anything we can do to help 
make the program work better in Indian country I think is a 
step forward.
    With that, I just want to thank you guys once again for 
showing up to the hearing.
    We are adjourned. Thank you.
    [Whereupon, at 11:20 a.m. the committee was adjourned, to 
reconvene at the call of the Chair.]
=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii

    Thank you, Mr. Chairman. I commend the committee for holding this 
hearing on Housing Issues in Indian country.
    Through its unique trust relationship the United States has 
historically provided housing services to Native peoples. Today, more 
than ever we are facing a crisis among Native communities when it comes 
to housing. According to a 2003 report published by the United States 
Commission on Civil Rights approximately 90,000 Native families are 
homeless or underhoused. I am certain that this number has only 
increased since 2003. Poverty has run rampant in Native communities and 
because of this Native communities are faced with overcrowded and 
substandard living conditions.
    Three studies have documented the acute housing needs of Native 
Hawaiians--which include the highest rates of overcrowding and 
homelessness in the State of Hawaii. Those same studies indicate that 
inadequate housing rates for Native Hawaiians are among the highest in 
the Nation.
    In light of these disheartening reports, I cannot stress to you how 
important it is to reauthorize the Native American Housing Assistance 
and Self-Determination Act [NAHASDA], in particular title VIII so that 
we can continue efforts to assure that the Native people of Hawaii and 
across the Nation may 1 day have access to housing opportunities that 
are comparable to those now enjoyed by other Americans.
    Thank you, again, Mr. Chairman for holding this much needed hearing 
today.
                                 ______
                                 

Prepared Statement of Micah A. Kane, Chairman, Hawaiian Home Commission

    Mr. Chairman and members of the Senate Committee on Indian Affairs.
    My name is Micah A. Kane and I am chairman of the Hawaiian Homes 
Commission.
    Thank you for the opportunity to testify on the important issue of 
providing housing opportunities in Native American communities 
including Native Hawaiian communities located in the State of Hawaii. 
We believe that there is a continuing need to support HUD's efforts to 
provide housing opportunities and encourage other Federal agencies to 
partner with HUD to address the severe housing needs of all Native 
American communities and enhance the lives of all Native people who 
live on Trust lands and continue to have significant housing needs.
    Native Hawaiians as defined under the Hawaiian Homes Commission Act 
of 1920, share many of the same attributes as Indian people. Their 
housing needs are significant and their trust lands require significant 
infrastructure to realize new housing developments. The difficulty at 
securing financing for large scale infrastructure can be linked to a 
lack of private capital and private financial institutions and their 
inability to understand the needs of the Native Hawaiian community and 
the various legal issues associated with development on their lands.
    Native Hawaiians continue to work with the National American Indian 
Housing Council, National Congress of American Indians, and HUD's 
Office of Native American Programs.
    The Native American Housing Assistance and Self-Determination Act 
of 1996 [NAHASDA] created the Indian Housing Block Grant [IHBG] and 
Title VI Tribal Housing Activities Loan Guarantee programs [Title VI]. 
On December 27, 2000, the Omnibus Indian Advancement Act [Pub. L. 106-
569] amended NAHASDA by adding a new title, ``Housing Assistance for 
Native Hawaiians.'' Title VIII authorized the Native Hawaiian Housing 
Block Grant program, which is similar to the IHBG program, but serves 
Native Hawaiian families eligible to reside on the Hawaiian Home Lands.
    The Omnibus Indian Advancement Act also established the Section 
184A Native Hawaiian Loan Guarantee program. This single-family home 
loan guarantee program for Native Hawaiians is similar to the Section 
184 Indian Housing Loan Guarantee program authorized by the Housing and 
Community Development Act of 1992 [Pub. L. 102-550, 12 U.S.C. 1715z-
13a].
    We support the reauthorization of all Native American and Native 
Hawaiian housing and loan guarantee programs and we are hopeful that 
these programs will be supported by Congress.
    All Native people including Native Hawaiians should be allowed to 
participate in affordable home ownership on as widespread basis as 
possible and enjoy the development of Hawaiian Home Lands as originally 
intended by Congress when it passed the Hawaiian Homes Commission Act 
in 1921.
    We look forward to working with you and the committee on future 
housing initiatives that will dramatically enhance the housing 
development opportunities for all Native People across the Nation.
    Thank you for allowing the Department of Hawaiian Home Lands to 
provide testimony.
                                 ______
                                 

 Prepared Statement of Jon Perez, Behavioral Health Consultant, Indian 
       Health Service, Office of Clinical and Preventive Services

    Good Morning. I am Dr. Jon Perez, Behavioral Health Consultant with 
the Indian Health Service, Office of Clinical and Preventive Services. 
I am here today to provide testimony on behalf of the Indian Health 
Service for this committee's oversight hearing on Indian Housing. I 
understand I am not so much to provide data on housing so much as to 
provide context for this issue and to offer some psychological 
perspective about what it means to live--or not live--in a home of 
one's choice; or, to discuss the impact on individuals and families if 
they have no choice or no home at all.
    The IHS provides health services to more than 1.8 million federally 
recognized American Indians/Alaska Natives through a system of IHS, 
tribal, and urban [I/T/U] health programs. The mission of the agency is 
to raise the physical, mental, social, and spiritual health of American 
Indians/Alaska Natives to the highest level, in partnership with the 
population we serve. The agency goal is to assure that comprehensive, 
culturally acceptable and public health services are available and 
accessible to the service population. Our duty is to uphold the Federal 
Government's responsibility to promote health of American Indian and 
Alaska Native people, communities, and cultures and to honor and 
protect the inherent sovereign rights of tribes.
    The Compact Edition Oxford English Dictionary [1981] devotes almost 
three full pages to the word ``home.'' It is one of those big words 
with important and manifold meanings. For our purposes today, allow me 
to focus on just one which defines home as, literally, ``The place of 
one's dwelling or nurturing, with the conditions, circumstances, and 
meanings which naturally and properly attach to it, and are associated 
with it'' [v.1, pg. 1322]. Psychologically, we speak of those 
conditions and circumstances as providing safety; security; nurturance; 
and respite. It is that physical place and psychological space that is 
among the most basic of our human needs and the most important for our 
healthy development. In plain English, it is the essential place where 
the person or family lives and is safe.
    In Indian communities across the country where housing is difficult 
to obtain or where waiting lists are long, individuals and families 
tend to end up in multifamily and multi-generational housing 
arrangements, or in a series of such places and arrangements. The 
transient or frequently changing living arrangements are the most 
difficult for children, whose stability and subsequent development can 
be negatively affected by such moves. Even in the large extended family 
and clan relationships where there is generally easy movement among 
homes and families, the critical psychological process that is 
operative here is choice, that is, if people move of their own volition 
among multiple family relationships that, I would advocate, is strength 
of the culture and community. However, if people are compelled to live 
this way because they have no other alternative, that is another and 
more troubling situation. Being forced to live in a place, even among 
family, where one does not want to live or may not even be welcome, 
creates an environment where increased levels of anger, conflict, and 
individual and familial distress are seen. Safety can be reduced, 
respite limited if not completely lost, and nurturance subordinated to 
tolerance and just making it through the day.
    Because the IHS does not specify living arrangements with our 
clinical documentation software, I do not have levels of homelessness 
or people forced to live in alternative housing arrangements among our 
patient population. However, in my over 20 years of direct clinical 
experience with Indian people from isolated communities to major 
metropolitan areas, I believe I can safely draw the following clinical 
opinion: where people are not able to obtain housing they are unable to 
create the definition of home, nor enjoy the benefits of such a place. 
In fact, the levels of distress and dysfunction increase markedly and 
can extend into multiple generations.
    Mr. Chairman, that concludes my prepared remarks and I will be very 
pleased to answer any questions you may have for me.
                                 ______
                                 

Prepared Statement of Gregory Pyle, Principle Chief, Choctaw Nation of 
                                Oklahoma

    My name is Chief Gregory Pyle, principle chief of the Choctaw 
Nation of Oklahoma, the third largest tribe in America, with over 
185,000 members. I am submitting this testimony for consideration by 
the Committee on Indian Affairs of the Senate on issues involved in the 
reauthorization of the Native American Housing and Self-Determination 
Act.
    I would like to continue to voice my support for the Native 
American Housing Assistance and Self-Determination Act [NAHASDA] of 
1996. I know that this committee will be faced with reauthorization 
NAHASDA and look forward to working together.
    In the past decade of tribal control over the resources provided by 
NAHASDA to tribes and Native Alaska villages and organizations for 
housing of American Indians and Alaska Natives, we have made progress. 
I think we sometimes gloss over the fact that the title of this act for 
housing includes the term ``Self Determination''. NAHASDA is a logical 
extension of Public Law 93-638, the Self Determination and Education 
Assistance Act, the original act recognizing tribal and Alaska Native 
rights to make decisions controlling our lives and the lives of our 
adults and children within the Council Chambers, not in distant 
offices. The statute recognizes and embodies local control in needs 
analysis and action definition. We stress that the statute and the 
Congressional action passing it, recognized that right, it did not 
create that right. Our right to control tribal programs at the local 
tribal level is inherent in our sovereignty. In recent decades that 
premise, long forgotten or suppressed, has again taken root, and we 
feel that this recognition is responsible for the progress we have 
made. We will continue that progress as long as we work together to 
enable tribal decisions and do not revert to trying to make ``one size 
fits all'' solutions.
    The creation of a single block grant to be distributed to tribes 
and their Housing Authorities really put meaning in the terms ``self 
determination'' and ``local control''. It created both the power to 
determine needs and the ability to address them quickly with local 
decisionmakers. As a result, housing for our people in the last decade 
has made a dramatic step forward. The legislation recognizing the 
ability of tribes and their people to make good decisions quickly 
placed the authority to act with the need for action. Tribes are 
required to develop and put in place a plan for their housing 
activities and submit it to the Department of Housing and Urban 
Development [HUD] but so long as we stay with the plan we develop, the 
HUD becomes an enabler, a part of the solution.
    However, sadly, all the witnesses testifying before the committee 
today will agree that there are still very serious problems in housing 
for our Indian people. Severe shortfalls in adequate housing resources 
exist throughout Indian country. They exist on reservations, but they 
also exist in rural, non-reservation settings. Lack of housing, 
inadequate housing, housing with inadequate plumbing and insulation, 
and housing which is in need of rehabilitation and/or modernization 
maintenance seems to be commonplace in not only isolated spots, but 
also in rural areas with heavy Indian and Native American populations.
    As one witness will testify today, lack of adequate housing casts a 
shadow over many facets of a child's life. It can make it more 
difficult for families to stay together and thrive. It becomes a 
multiplier in terms of the effects of other social factors, such as 
health, socio-economic circumstances and, most importantly, hope.
    A major part of this problem is the lack of resources for the 
tribes. The National American Indian Housing Council has determined a 
need for a minimum of $1.1 billion in annual appropriations to meet 
this need. Unfortunately, we only have $627 million requested in the 
fiscal year 2008 budget, actually down from the fiscal year 2004 
appropriations level of $654,100,000. Native American Tribes are asked 
to do more with less. We are told to meet the needs of all with 
resources only adequate to a few.
    We are realistic. While we ask for your help in obtaining higher 
appropriations levels, we know that for the foreseeable future, our 
emphasis must be on equitably distributing the money we do receive. It 
is in that context of fairly distributing the small ``pot'' of Federal 
housing funds that a problem has arisen.
    One of the most difficult decisions to be faced by the committee is 
this question of distribution of funds. In the original NAHASDA 
authorization, many questions were placed into a rulemaking committee, 
made up of tribal and Federal representatives. We are sure the aim of 
the committee in setting up this process was to encourage tribes and 
Alaska Native groups to work out their differences in a collegial and 
dispassionate fashion. It showed the committee's commitment to self-
determination and the recognition of tribal sovereignty and we 
applauded the effort then and we support it now. By and large, it 
worked out very well and its very establishment showed the committee's 
wisdom to resist any urge or call to set arbitrary limits or standards.
    Unfortunately, we have to be frank and say that the rulemaking 
committee was unable to resolve the toughest issue given to it--how to 
divide up the money in the Block Grant. More specifically, which set of 
data on population to use for one of the factors in the formula.
    When the rulemaking committee failed to reach consensus, the HUD, 
realizing it was faced with a no win proposition but forced by 
circumstance and need to make a decision, did what it thought was 
right. This decision, and the HUD decision, was immediately attacked by 
a sector of the tribal representatives, on several grounds. I will not 
rehash that debate today, but everyone here knows the debate tore at 
the solidarity of tribes and their leaders at a time they should have 
been supporting higher appropriations for this program. Appropriations 
debate centered not around need but around political fixes and as a 
result, we have spent 2 years of internecine debate and dissension. We, 
and I include all those who have debated the issue, have deeply wounded 
what has always been a strong center of support for the undisputed 
needs of all Native American and Alaska Native housing authorities and 
their people.
    I am not here to take a position on this issue, either of support 
or of opposition. I come from a State which has many tribes [37] and 
many proud people of Indian heritage. Many of our members have multiple 
heritage, and we celebrate that fact. For years, Oklahoma was an 
afterthought in any program created to benefit Indian people 
legislation would be written, and late in the process, someone would 
remember our State and hastily add in an ``Oklahoma provision''. Well, 
as you can see from my testimony today, we are from Oklahoma and we 
will participate from the start.
    I am here, however, to ask the committee to continue its support of 
Self Determination and tribal control in its deliberations on this 
issue and in reaching it decision. I am concerned that in discussions 
with staff on the Hill, there does not seem to be a feeling of urgency 
to have a debate on the issue of data to be used in distribution, with 
all points of view involved and considered.
    We are tired of having our program essentially controlled by 
provisions in annual appropriations bills which were established 
without debate, without input from the vast majority of tribes and 
without public consideration. NAHASDA should be reauthorized and this 
committee needs to step up and take on the issue of clearly defining 
how the funds in this program should be distributed. We have listened 
to the reasoning on this issue for 4 years and we suggest that the 
committee resist any easy solution involving embracing one simplistic 
solution or another. No matter what solution is made, unless it allows 
tribal governing authorities the right to have a say in which data base 
is used, this committee will have taken a step back, and not a step 
toward the future.
    At the same time, I recognize the responsibility of the Federal 
Government to shepherd scarce resources, and its need to be sure that 
it ultimately reinforces its government to government relationship with 
tribes. That recognition, however, does not need to be restrictive on 
tribes. There are a number of data sets which tribes and the Federal 
Government should be compared when evaluate the equity in the 
distribution of funds. As well as the sets produced by the Census, 
there are data sets produced by the Indian Health Services and other 
Federal programs. Tribal governments have their own data sets, though 
they have a range of sophistication in their systems for maintaining 
these. Some have made calls for the formation of new data sets, with a 
new collection of information. In my opinion, such a set should have 
the following guidelines:

  <bullet> \\\\\\does not deplete scarce resources needed for housing 
        ``bricks and mortar'';
  <bullet> \\\\\\includes definitions and methods which substantiate 
        the ``facts on the ground'' for all tribes and is not simply an 
        arbitrary collection based on restrictive rules;
  <bullet> \\\\\\is collected in an objective fashion, preferably by a 
        third party and within a set timeframe; and
  <bullet> \\\\\\the results are statistically valid and verifiable, 
        through reference to other existing data sets. A variation is, 
        of course, probably, but should be within predicted range.

    For tribes in Oklahoma, I believe and recommend the selection of 
which data to have the Department use in the distribution of funds 
should be a matter of tribal determination. Upon submission, it is the 
job of HUD to validate the data submitted. However, as long as the data 
is statistically valid for the Tribe involved, it should be a matter of 
self determination. It would allow Tribes to make the choice and 
support sovereignty.
    I know this committee has its work cut out for it with the 
reauthorization of NAHASDA. The Choctaw Nation of Oklahoma wishes to 
work with you and will be ready to offer any assistance we can.
                                 ______
                                 

   Prepared Statement of George Rivera, Governor and Alyn Martinez, 
     Housing Corporation Director, Pueblo of Pojoaque, Santa Fe, NM

    Good morning Chairman Dorgan and honorable members of the Senate 
Committee on Indian affairs. My name is George Rivera. I am the elected 
Governor of the Pueblo of Pojoaque. I have been the Governor of the 
Pueblo since 2004. From 1992 to 2004, I was Lieutenant Governor. With 
me is Alyn Martinez, director of the Pueblo of Pojoaque Housing 
Corporation.
    We are here today to thank Congress for providing funds for low and 
moderate income housing. We ask that you re-authorize the Native 
American Housing and Self-Determination Act [NAHASDA] and make changes 
so that the funds can be used to help more low and moderate income 
tribal members from smaller tribes, such as ours. Primarily, we are 
also here to share our housing success story. We will answer any 
questions you have about the nuts and bolts of funding tribal housing 
developments by using Federal, state and tribal funds.
    The Pueblo of Pojoaque is located in a rural, high desert area, 
approximately 12 miles north of Santa Fe, NM. According to the best 
scientific evidence, the Pueblo has been occupied since 1150 A.D. From 
1540 to 1848, the Pueblo fell under Spanish, then Mexican domination. 
In 1848, the Pueblo became part of the United States. The Pueblo's 
Spanish land grant was confirmed by Congress in 1858 and patented by 
the United States on November 1, 1864. The confirmation was in the form 
of a quit-claim deed. The Pueblo of Pojoaque has always owned its land 
in communal title--the Pueblo has never been a Federal reservation.
    The original land grant was 13,438.15 acres. Between 1848 and 1913, 
the Federal Government did not protect the Pueblo from encroachment by 
outside settlers. In 1913, the U.S. Supreme Court held that the Pueblos 
of New Mexico were to be considered ``Indians'' for the purpose of 
protection by the Federal government.
    In a high desert, water is vital to survival. The Pueblo lost 
1,845.64 acres of its best lands, located near the waterways, to 
encroachment by settlers. By 1913, due to the encroachment and loss of 
its irrigable lands, most of the Pueblo of Pojoaque members had left 
the Pueblo to live and work in neighboring Pueblos and surrounding 
communities.
    In 1924, the Federal Government, through the Pueblo Lands Act, 
authorized payments to the Pueblo for lands lost due to Federal 
negligence. In 1932, five Pueblo of Pojoaque families returned to their 
traditional homelands and organized the community according to its 
traditional government. The traditional government has declined to 
adopt a Constitution. The traditional government consists of a tribal 
council, open to all enrolled members over the age of 18. The tribal 
council elects the tribal officials for a 2-year period.
    Until the 1980's, the Pueblo's unemployment rate was estimated at 
80 percent. Due to the lack of economic opportunity, many tribal 
members lived and worked in neighboring Pueblos, communities, and 
throughout the United States.
    To address the economic, zoning, infrastructure and housing 
problems, the Pueblo of Pojoaque Tribal Council adopted the W.C. Kruger 
and Associates Community Development Plan in May 1988. The Community 
Development Plan was a blueprint for activity within the 11,600 acres 
still owned by the Pueblo of Pojoaque. Substantial and successful 
economic growth followed the adoption of the plan. Today, we own and 
operate a golf course, two gas stations with convenience stores, two 
hotels, a convention center, a sandwich store franchise, a tourist 
information center, two restaurants, a supermarket, a hardware store, a 
laundromat, a mobile home park and an apartment complex. We lease space 
and buildings to outside businesses, a medical center and credit union. 
We also own and operate a casino with a buffet. There is 100 percent 
tribal member employment--a job is available for any member who wants 
it.
    The Pueblo of Pojoaque enrolled members are young. According to the 
1990 Census, there were 177 Pueblo members; currently there are 373 
enrolled members. According to the New Mexico Voices for Children-Kids 
Count Special Report of 2005, the 2000 Census reported that of the 311 
Native Americans living on the Pueblo, 123, or 40 percent of the 
population, were under 18 years old. The Pueblo has a long list of 
young families who qualify for low- to moderate- level income housing. 
According to the current Federal guidelines for the Santa Fe area, in 
order to qualify for low-level income housing, a family of four must 
not have a gross income exceeding $26,400. According to current Federal 
guidelines for the Santa Fe area, in order to qualify for moderate-
level income housing, a family of four must not have a gross income 
exceeding $39,600. Currently, rent for a three-bedroom subsidized home 
in the Santa Fe area may range from $150 to $891. The Pueblo only 
provides subsidized homes for enrolled members.
    No casino funds have been used in the housing projects. The housing 
projects have been funded through the Federal and State governments, 
with the Pueblo of Pojoaque providing the land, most of the labor, and 
administrative staff.
    Prior to 1988, Pueblo housing consisted of 40 Department of Housing 
and Urban Development [HUD]-financed homes located within the Pueblo's 
main and north villages.
    Since 2000, the Pueblo of Pojoaque has developed and completed 
construction on phase I of the new housing project, known as White 
Sands. Phase II is now under construction. The housing projects are 
located within the Pueblo on 200 acres of Pueblo-owned land. The first 
phase of the White Sands Housing Development was begun under the 
auspices of Pojoaque Limited Liability Company #1, a tribally chartered 
corporation. Thirty low-income houses were built.
    White Sands, Phase I, cost approximately $5,500,000. The costs were 
for infrastructure and home construction. NAHASDA funds provided 
$36,000 a year for 20 years. The Pueblo secured a $400,000-bank 
``construction gap'' loan using part of the NAHASDA funds as 
collateral; $3,000,000 was provided through the Federal and State tax 
credit program; $400,000 was provided by Indian Health Services for 
water and sewer infrastructure; $300,000 was provided through the 
Affordable Housing Program [AHP]--a program provided through regional 
banks; $400,000 was provided by the HUD-Rural Housing and Economic 
Development [RHED] program, for power, gas, and telecom infrastructure; 
$ 1,000,000 was provided by the Bureau of Indian Affairs [BIA] for 
roads.
    The second phase of the White Sands Housing Development was begun 
through the auspices of Pojoaque Limited Liability Company 42. Twenty 
low-to-moderate income homes are being built. The project has cost 
$4,150,000.
    The Federal and state tax credit program provided $2,000,000. The 
Pueblo used a tribal Certificate of Deposit as collateral to secure a 
$400,000 bank security loan. The $400,000 bank security loan was then 
used to secure a $310,000-AHP Grant; $605,000 was provided by the HUD-
Indian Community Development Block Grant [ICDBG] program; $300,000 was 
provided by RHED. $300,000 was provided by the New Mexico Tribal 
Infrastructure Fund; $360,000 was provided by the Indian Health Service 
for sewer and water infrastructure. The funding for the road 
infrastructure is not complete.
    No. 1. NAHASDA does not allow for funds to be used for maintenance 
of the homes on the most recent housing projects, such as phase I of 
White Sands. The original Federal funding for the first 40 homes on the 
Pueblo of Pejoaque included funding for maintenance of the homes. 
Maintenance over the 15-year life of the home may exceed the budget of 
a low- or moderate-income level owner. The burden for maintenance of 
the homes falls upon the Pueblo of Pejoaque or the low- or moderate-
income level owners. The Pueblo believes that NAHASDA should allow, or 
restore, funds to be used for maintenance of the homes on housing 
projects that NAHASDA helps fund.
    No. 2. NAHASDA and IHS funds are mutually exclusive. In other 
words, if NAHASDA funds are used for the housing project for any 
purpose, IHS will prorate the amount of IHS infrastructure funds that 
can be used for the housing project.
    For example, the NAHASDA funds that were used as leverage to 
supplement phase I construction funds [the ``construction gap loan''] 
were deducted from the IHS infrastructure budget. Therefore, there was 
an unintended consequence for the overall project--there was a tradeoff 
in the quality of wastewater systems in phase I. Due to the deduction 
by IHS of NAHASDA funds, the Pueblo was not able to fund alternative 
wastewater systems.
    Also, by curing the problem of securing a ``construction gap loan'' 
for phase I with future pledges of NAHASDA funds, the Pueblo has used 
all of those NAHASDA funds. The needs for future housing remains. 
However, the NAHASDA formula for funding does not address our small 
tribe's future housing needs. According to the current formula, we 
cannot access NAHASDA funds unless our population grows--yet we still 
have housing needs not addressed.
    The solution is to allow NAHASDA funds to supplement the IHS 
infrastructure funds, without deducting the NAHASDA contribution from 
the IHS infrastructure funds. NAHASDA funding should also be increased 
to allow all tribes to address their housing needs.
    No. 3. The Pueblo of Pojoaque has proven that by using creative 
financing, tribal housing needs can be addressed. NAHASDA does not 
currently provide goals or incentives for smaller tribes to meet all of 
the housing needs. The economies of scale should be incorporated in 
NAHASDA funding formulas. With a goal-based, incentive laden formula, 
the Pueblo of Pojoaque could meet all of its housing needs by using 
Federal, State, and tribal financing.

  Questions for Governor George Rivera, Pueblo of Pojoaque, from Hon. 
             Pete V. Domenici, U.S. Senator from New Mexico

    Senator Domenici. Governor Rivera, I appreciate your being here 
this morning. I want to applaud you for your diligent approach to 
solving problems, and for your dedication to the Pueblo of Pojoaque.
    I have reviewed your testimony with great interest.
    You indicated in your written testimony that during the 1980's 
unemployment on the Pueblo was estimated at 80 percent.
    No. 1. How has the housing work you have done contributed to the 
economic growth of the Pueblo of Pojoaque?
    No. 2. What are some of the unique challenges that smaller tribes 
and Pueblos, like yours, face in trying to provide housing for low and 
moderate income tribal members?
    I know that the Pueblo takes great pride in maintaining its own 
community water and wastewater systems. You state in your testimony 
that because NAHASDA funds were deducted from IHS infrastructure funds 
that you had to modify your wastewater system.
    No. 3. If those funds were available, how would the construction of 
your wastewater system been enhanced.

Questions with responses from Governor Rivera

    Question. How has the housing work you have done contributed to the 
economic growth of the Pueblo of Pojoaque?
    Answer. Affordable housing has been historical problem in the Santa 
Fe area. This same trend has been evident since the 1980's--low wages, 
high home prices. The 2000 Census stated that the per capita income in 
Santa Fe County was $23,594. According to the latest figures used by 
the Pueblo of Pojoaque and the Santa Fe Association of Realtors, the 
county's median sales price in the first quarter of 2007 was $517,000, 
up from $449,750 in the first quarter of 2006.
    Economic growth is directly related to the economic sophistication 
of the Pueblo members. All economic decisions must be authorized by the 
tribal council. The economic plan is carried out by Pueblo supervisors. 
In order to keep Pueblo members with an economic background from 
leaving the area, and to attract Pueblo members to return to the 
Pueblo, the Pueblo has followed a two-prong strategy since the 1980's. 
The first prong is to keep housing affordable. The second prong is to 
provide educational incentives, such as stipends and tuition 
reimbursement, for the members. Therefore, the cycle of education and 
economic growth is vital to the Pueblo's culture.
    In order to provide affordable housing, the Pueblo chartered the 
Pueblo of Pojoaque Housing Corporation to build the necessary 
infrastructure and to develop, operate, and maintain housing for the 
growing population. By reducing the need for profits required by 
outside developers, the Pueblo has kept down housing costs. The 
Corporation also provides jobs for qualified members, thereby also 
keeping the income, within the community.
    Question. What are some of the unique challenges that smaller 
tribes and Pueblos, like yours, face in trying to provide housing for 
low and moderate income tribal members?
    Answer. The challenges center around funding Federal, State, and 
tribal funding for infrastructure, development, maintenance, operations 
and construction of housing. Unfortunately, for smaller tribes, Native 
American Housing and Self-Determination Act [NAHASDA] Helps in 
providing funds for the planning, designing, and constructing 
affordable housing--but the funds can't be stretched sufficiently to 
meet the housing needs.
    There is no overall coordination between the Federal agencies. 
NAHASDA funds cannot be co-mingled with Indian Health Service [IHS] 
funds. Specifically, the use of NAHASDA funds proportionately reduces 
the amount of funds that IHS will provide for housing. The Pueblo's 
recommended solution is to simply place all Indian housing funds under 
one agency. That, agency could then take the funds and determine how 
much money could be used for the different phases of Indian housing. 
Allocations could be based on a formula that balances housing needs and 
rewards tribes who meet the needs. Such a formula would guarantee 
Congress that Federal, State, and tribal funds are, being used to 
provide needed Indian housing and such a formula would reward small 
tribes for completing construction projects.
    Question. If [NAHASDA and IHS] funds were available, how would 
construction of your wastewater system have been enhanced?
    Answer. The, inability to co-mingle NAHASDA and IHS funds forced 
the Pueblo to build an inadequate wastewater system. An alternative 
system would have eliminated the possibility of ground contamination 
and provided reusable water for residents, The solution is to allow 
NAHASDA funding to be co-mingled with other Federal funding sources, 
such as IHS funds.
    The first phase of the White Sands Housing Development wastewater 
system was forced to revert to conventional septic systems. Septic 
systems pose groundwater issues with contamination from nitrates 
leaching into the water table. Septic tanks must be periodically 
pumped. Septic tanks must be managed appropriately to ensure proper 
operation.
    The Pueblo considered alternative onsite wastewater systems to 
treat the wastewater and reclaim the water. The alternative systems 
could not be purchased due to the restriction on co-mingling NAHASDA 
and IHS funds.
    Question. With a NAHASDA funding allocation of $205,000 a year, how 
many homes does the Pueblo build?
    Answer. The meager NAHASDA allocation was used to leverage other 
State and tribal funding for the homes. The $205,000 provides for the 
Pueblo to manage current stock. The NAHASDA funding formulas do not 
allow for the construction of additional homes.
    Question. How important was leveraging NAHASDA grant funding when 
planning your multi-phase housing development?
    Answer. The leveraging of NAHASDA funds was critical to funding the 
first phases of the White Sands Development, NAHASDA funds were used to 
leverage funds for a loan to meet a gap in the construction phase of 
building. Specifically, NAHASDA funds were obligated to meet monthly 
payments on the loan. Therefore, the NAHASDA funds could not be used 
for operating costs.
    Since we used NAHASDA funds on the housing project, IHS funds 
limited our funds for ``wet'' utilities [water and sewer]. As a matter 
of fact, using NAHASDA funds seems to be a deterrent for development 
and construction of new housing projects for a small tribe. It seems 
that larger tribes are not as proportionately limited in the use of IHS 
funds. For a smaller tribe, the consequences of using, NAHASDA funds is 
detrimental.
    Question. What can Congress do to provide further incentives 
encouraging tribes to use creative financing for home development?
    Answer. As discussed earlier: Place the Indian new housing programs 
under one agency, divide the money into separate categories such as--
infrastructure, development, design, archaeological. home construction, 
operation, maintenance on old stock, and then create an allocation 
formula that rewards tribes for meeting their housing goals.
    Question. How important was the use of State funding in putting 
together the $5.5 million Pueblo's White Sand Development?
    Answer. The State Tax Credit Program administered by the New Mexico 
Mortgage Finance Authority was crucial to the White Sands Development. 
The State Tax Credit Program provided 50 percent of the cost of the 
total White Sand project. The State Tax Credit Program provided for 80 
to 90 percent of the actual home construction. The State Tax Credit 
Program is critical for small tribes with limited resources to develop 
new, affordable housing. Without the State Tax Credit Program, the 
houses could not be built.
                                 ______
                                 

   Prepared Statement of Russell Sossamon, Chairman, Southern Plains 
                       Indian Housing Association

    Mr. Chairman:
    My name is Russell Sossamon and I am president of the Southern 
Plains Indian Housing Association [SPIHA] which consists of close to 50 
tribally designated housing entities that cover the States of Oklahoma, 
Texas, Louisiana, Missouri, and Kansas. We are submitting this 
testimony on certain issues of concern regarding Indian Housing for 
consideration of your committee.
    First, SPIHA would like the record to reflect that it supports 
reauthorization of the Native American Housing Assistance and Self-
Determination Act [NAHASDA] of 1996. We look forward to working with 
you and the committee on the many issues related to reauthorization in 
the near future.
    Second, SPIHA would like to make clear that it believes that while 
there are no perfect methodologies, it should be recognized that it is 
the sovereign right and responsibility of each tribal government to 
determine the least flawed and most accurate methodology that reflects 
the tribal population of their area. Each tribal government has the 
opportunity and obligation to engage in direct government to government 
consultation and or negotiations with the Federal Government to 
substantiate the validity of the data set the tribe has determined to 
utilize. In other words, SPIHA members believe that ``choice'' should 
be provided to tribal governments as to use of a validated data set.
    Each tribe is unique and that uniqueness needs to be preserved and 
respected. Imposing one data set over another would be an ill-
considered policy.
    Additionally, attempting to fund a special census that all tribes 
would undertake could only be done at an enormous cost. For instance 
using estimates based on procedures that have been validated by the 
U.S. Census Bureau, a census of Maricopa County in Arizona would cost 
$10 million. The cost of doing a census in an area that is 62 times 
larger than Maricopa County like Alaska would be incalculable. To cover 
the formula areas in Oklahoma, all 1,514,400 housing units in that 
State would have to be surveyed. The cost of what would essentially be 
a duplicate census would be over $67 million, based on guidelines 
available from the U.S. Census.
    Providing funds for all tribes to complete their own census would 
be an extravagant use of resources that would not guarantee any better 
result than what currently exists in terms of data sets. SPIHA would 
not be in favor of draining funds that are already inadequate to meet 
the housing needs of Native Americans and Alaskan Natives for a 
universal census. Any additional funds should be targeted to building 
more and better homes for our people.
    However, for those tribes that desire to conduct their own census, 
the mechanism exists today for that to occur under NAHASDA. Every tribe 
has the ability to present data to HUD with proper documentation. In 
addition, the cost of such data collection is an allowable use of 
Indian Housing Block Grant [IHBG] funds. Examples of successful 
utilization of this process include presentation of alternative data to 
HUD by the Ogalala Sioux and Lumbee State Tribe of North Carolina.
    Under SPIHA's ``choice'' proposal, this data collection option 
would be preserved.
    Finally, the concept of a ``hold harmless'' provision that requires 
all tribes to take an across the board cut in funding under the 
proposed Federal Fiscal Year 2008 budget points out the problem with 
the formula as configured by the appropriators for fiscal years 2006 
and 2007. In that formula, HUD is directed to use a data base that 
supposedly allocates the most money to a tribe, and then if the total 
tally exceeds the appropriated amount, HUD reduces the amount for the 
tribes with an across the board cut of a certain percentage to stay 
within the appropriated amount. The problems with this approach are 
many, and include:

  <bullet> \\\\\\Again the element of ``choice'' is eliminated. A tribe 
        has no say as to what data set is to be used.
  <bullet> \\\\\\The hold harmless across the board cut is a draconian 
        method of meeting artificial limits and creates uneven impacts, 
        with many smaller tribes taking a much larger cut in proportion 
        to their overall budgets than larger tribes.

    The result also is illustrative of why the IHBG formula needs to be 
discussed within the context of other elements of NAHASDA and not just 
through the narrow lens of the appropriations process. In the 
controversy over use of certain data sets, it has been forgotten that 
more significant portions of the IHBG formula are influenced by 
elements such as overcrowding, housing cost burden of over 50 percent, 
and percent of households that are of very low and low income. These 
need to be considered as part of the overall review of reauthorization 
of NAHASDA.
    Providing ``choice'' of data sets to recipients of IHBG funds under 
NAHASDA is the option that best represents the ideals of the United 
States while simultaneously respecting the sovereignty of tribal 
governments. And if tribes are interested in conducting their own 
tribal census, they should have the ``choice'' to do so, using existing 
protocols that work.
    The Southern Plains Indian Housing Association thanks you for 
allowing us to submit remarks on this very important subject. 
Furthermore, we appreciate and acknowledge your hard work, and the 
efforts of your committee members and staff, in analyzing all views on 
NAHASDA in a fair and considered fashion.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

                                 <all>

</pre></body></html>
